<html>
<title> - CHALLENGES AND OPPORTUNITIES FOR ADVANCING U.S. INTERESTS IN THE UNITED NATIONS SYSTEM</title>
<body><pre>[Senate Hearing 116-211]
[From the U.S. Government Publishing Office]


                                                        S. Hrg. 116-211

            CHALLENGES AND OPPORTUNITIES FOR ADVANCING U.S. 
                 INTERESTS IN THE UNITED NATIONS SYSTEM

=======================================================================

                                HEARING

                               BEFORE THE

                      SUBCOMMITTEE ON MULTILATERAL
                       INTERNATIONAL DEVELOPMENT,
                     MULTILATERAL INSTITUTIONS, AND
                    INTERNATIONAL ECONOMIC, ENERGY,
                        AND ENVIRONMENTAL POLICY

                                 OF THE

                     COMMITTEE ON FOREIGN RELATIONS
                          UNITED STATES SENATE

                     ONE HUNDRED SIXTEENTH CONGRESS

                             FIRST SESSION
                               __________

                           NOVEMBER 20, 2019
                               __________


       Printed for the use of the Committee on Foreign Relations
       
       
                 [GRAPHIC NOT AVAILABLE IN TIFF FORMAT]       


                   Available via the World Wide Web:
                         http://www.govinfo.gov

                              

                    U.S. GOVERNMENT PUBLISHING OFFICE
                    
40-624 PDF                 WASHINGTON : 2020   





                 COMMITTEE ON FOREIGN RELATIONS        

                JAMES E. RISCH, Idaho, Chairman        
MARCO RUBIO, Florida                 ROBERT MENENDEZ, New Jersey
RON JOHNSON, Wisconsin               BENJAMIN L. CARDIN, Maryland
CORY GARDNER, Colorado               JEANNE SHAHEEN, New Hampshire
MITT ROMNEY, Utah                    CHRISTOPHER A. COONS, Delaware
LINDSEY GRAHAM, South Carolina       TOM UDALL, New Mexico
JOHNNY ISAKSON, Georgia              CHRISTOPHER MURPHY, Connecticut
JOHN BARRASSO, Wyoming               TIM KAINE, Virginia
ROB PORTMAN, Ohio                    EDWARD J. MARKEY, Massachusetts
RAND PAUL, Kentucky                  JEFF MERKLEY, Oregon
TODD, YOUNG, Indiana                 CORY A. BOOKER, New Jersey
TED CRUZ, Texas
              Christopher M. Socha, Staff Director        
            Jessica Lewis, Democratic Staff Director        
                    John Dutton, Chief Clerk        



           SUBCOMMITTEE ON MULTILATERAL INTERNATIONAL        
            DEVELOPMENT, MULTILATERAL INSTITUTIONS,        
              AND INTERNATIONAL ECONOMIC, ENERGY,        
                    AND ENVIRONMENTAL POLICY        

                 TODD YOUNG, Indiana, Chairman        
MITT ROMNEY, Utah                    JEFF MERKLEY, Oregon
RAND PAUL, Kentucky                  TOM UDALL, New Mexico
JOHN BARRASSO, Wyoming               EDWARD J. MARKEY, Massachusetts
LINDSEY GRAHAM, South Carolina       CORY A. BOOKER, New Jersey





                              (ii)        

  


                            C O N T E N T S

                              ----------                              
                                                                   Page

Young, Hon. Todd, U.S. Senator from Indiana......................     1

Merkley, Hon. Jeff, U.S. Senator from Oregon.....................     3

Moore, Jonathan, Principal Deputy Assistant Secretary, Bureau of 
  International Affairs, U.S. Department of State, Washington, DC     4
    Prepared statement...........................................     5

Tom, Hon. Kip, to the United Nations Agencies for Food and 
  Agriculture, U.S. Mission to the U.N. Agencies, Rome, IT.......     7
    Prepared statement...........................................     8

Busby, Scott, Deputy Assistant Secretary, Bureau of Democracy, 
  Human Rights, and Labor, U.S. Department of State, Washington, 
  DC.............................................................    10
    Prepared statement...........................................    12

Schaefer, Brett, Jay Kingham Fellow in International Regulatory 
  Affairs, The Heritage Foundation, Washington, DC...............    25
    Prepared statement...........................................    28

Yeo, Peter, Better World Campaign, Washington, DC................    40
    Prepared statement...........................................    41

Lehr, Amy K., Director of the Human Rights Initiative, Center for 
  Strategic and International Studies, Washington, DC............    49
    Prepared statement...........................................    52

              Additional Material Submitted for the Record

Response of Jonathan Moore to Question Submitted by Senator Todd 
  Young..........................................................    62

                             (iii)


 
           
CHALLENGES AND OPPORTUNITIES FOR ADVANCING U.S. INTERESTS IN THE UNITED 
                             NATIONS SYSTEM

                              ----------                              


                      WEDNESDAY, NOVEMBER 20, 2019

                               U.S. Senate,
        Subcommittee on Multilateral International 
       Development, Multilateral Institutions, and 
 International Economic, Energy, and Environmental 
                                            Policy,
                            Committee on Foreign Relations,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 2:33 p.m. in 
room SD-419, Dirksen Senate Office Building, Hon. Todd Young, 
chairman of the subcommittee, presiding.
    Present: Senators Young [presiding], Romney, and Merkley.

             OPENING STATEMENT OF HON. TODD YOUNG 
                   U.S. SENATOR FROM INDIANA

    Senator Young. This hearing of the Senate Foreign Relations 
Subcommittee on Multilateral International Development, 
Multilateral Institutions, and International Economic, Energy, 
and Environmental Policy will come to order.
    Today the subcommittee will hold a hearing to examine an 
important question: what challenges and opportunities exist for 
advancing U.S. interests in the United Nations system?
    Now, to fully assess this matter, we will hear testimony 
from two panels of well qualified individuals, one comprised of 
executive branch officials, and the other comprised of 
individuals from the private sector. With their help, I 
anticipate a thought-provoking examination of whether or not 
United States foreign policy objectives are being fulfilled 
within the U.N. framework, and I look forward to hearing their 
testimony shortly.
    I will add that we expect votes in the Senate to be called 
in just moments, and so what I will be doing as chairman of 
this committee is reading my opening remarks here. I will ask 
the ranking member to do the same, and then each of our 
witnesses. I will have you read briefly your opening remarks. 
At that point, we are likely to recess, go vote, and return 
into session.
    So as we look at the news today and we see the range of 
conflicts around the world, one thing is clear. Those conflicts 
are increasingly complex and have impacts that extend beyond 
their region.
    Iran continues to extend its tentacles throughout the 
Middle East, sowing instability and conflict wherever it goes.
    Russia no longer even attempts to hide its aspirations to 
influence foreign elections around the globe, including here in 
the United States.
    China's unfair trading policies and practices affect every 
one of its trading partners.
    The common thread with each of these challenges is they 
will be more easily resolved if we work together with 
international partners and allies. Our role in multilateral 
organizations is one that continues to be debated among 
government officials, think tanks, and academics. And while 
this debate is very important, we cannot lose sight of the 
changing landscape at the United Nations and other multilateral 
organizations where the United States and our allies are at 
risk of ceding moral and policy grounds to those who do not 
share our conviction for standards and norms.
    Today Chinese nationals are at the helm of four U.N. 
agencies. Americans are only at the head of three. One of the 
key issues we hope to explore in today's hearing is the 
implications for senior Communist Party members leading the 
United Nations in these agencies: the Food and Agricultural 
Organization, the International Telecommunications Union, the 
International Civil Aviation Administration, and the Industrial 
Development Organization.
    What types of policies will these Communist Party members 
implement? Who will they bring in? U.N. staff--will they 
represent the interests of the United Nations and its members 
or those of the Communist Party of China? And how should we 
advance our interests, which we believe to be universal given 
this backdrop?
    President Trump has repeatedly said that other countries 
need to step up and do more to shoulder the weight of 
addressing the major crises around the world.
    As China's economy continues to grow and it exerts greater 
influence in the world, it is natural that it would seek more 
positions of power within the U.N. system. But as it does so, 
it is incumbent upon the United States and our allies to ensure 
China supports and defends universal values rather than its own 
domestic political agenda. Human rights, free speech, freedom 
of movement, freedom of religion, due process, and access to 
information are just a few of the values that are essential 
elements of the U.N. Charter and its goal to maintain 
international peace and security.
    We need look no further than Xinjiang or Hong Kong to have 
serious concerns about China's lack of respect for fundamental 
human rights. We should be very concerned about how the United 
Nations gives a platform to countries like Cuba, Venezuela, and 
China to talk about human rights. The U.N. itself publishes 
reports citing these and other members of the Human Rights 
Council as countries that retaliate against their own citizens 
for defending human rights.
    We should be similarly concerned about Russia's role at the 
United Nations and its willingness to exercise its veto power 
to protect Assad, Maduro, and other autocratic leaders.
    Spending time on the council has not reformed these bad 
actors, but rather given them a larger mouthpiece to share 
their misguided view of what is considered a human right.
    There is no issue more controversial and divisive in the 
U.N. context than Israel. Each year, the U.N. takes up a 
disproportionate number of unbalanced resolutions that assign 
blame to Israel for perpetuating unrest in the Middle East. 
These resolutions do not include references to Hamas, a known 
terror organization. Further, fellow U.N. member countries have 
resisted U.S. efforts to draw any attention to Hamas activities 
in any forum.
    We look forward to our witnesses' statements on this 
complex issue and examining how the United Nations can play a 
more productive role in mediating and resolving conflicts in 
the Middle East and elsewhere.
    Finally, I feel it is necessary to again note why this 
subcommittee and this hearing are important.
    The United States remains the largest donor to the United 
Nations, paying 22 percent of the regular budget and 25 percent 
for peacekeeping operations. In 2017, the United States was 
assessed $3.5 billion by the U.N. and volunteered an additional 
$7 billion in funds.
    Given these enormous sums of funds, it is essential that we 
as Members of Congress keep a watchful eye on how these funds 
are being used and ensure they are going toward issues that 
reflect our values and our priorities.
    All that being said, I would like to recognize my 
distinguished ranking member for his comments. Senator Merkley.

                STATEMENT OF HON. JEFF MERKLEY, 
                    U.S. SENATOR FROM OREGON

    Senator Merkley. Thank you very much, Chairman Young. It is 
a pleasure to be here with you today working in a bipartisan 
fashion to look at the challenges and opportunities to advance 
U.S. interests and leadership in the United Nations.
    Thank you to our distinguished guests and for your 
willingness to testify on this important topic.
    The United Nations was stood up after the oppression, 
brutality, and destruction of World War II. In fact, the U.S. 
Constitution served as an inspiration for the United Nations 
Declaration of Human Rights. The United States played an 
instrumental role in shaping that post-war order and laid in a 
concert of nations to collaborate in defending liberty, human 
rights, and religious freedom to ensure that the horrors of the 
past did not reproduce themselves.
    In this era of great power competition where countries like 
China and Russia attempt to rewrite the global rules of the 
road, the United States is needed more than ever to push back. 
It is with great concern that I have seen the United States 
retreat from global leadership in recent years to our detriment 
and to the detriment of the world. Our withdrawal from the 
Human Rights Council and a repeated hesitance, even refusal to 
act meaningfully on human rights issues have created a void in 
the United Nations system that China, Russia, and other 
likeminded countries have eagerly exploited.
    The challenges we are facing today on existential threats 
such as those posed by climate chaos to the threats to 
democracy and human rights in authoritarian states are global 
in nature and require a global response. In the battle of 
ideas, China's vision puts development ahead of human rights, 
seeks to curtail access to the United Nations to human rights 
activists who challenge China's human rights record or policies 
and applies economic pressure on nations to support its 
interests.
    I look forward to hearing from our first panel on what we 
are doing to preserve and strengthen the post-World War II 
international order and to our second panel on how we work with 
the United Nations to best advance our interests and values. 
This is the first oversight hearing on the United Nations in a 
couple years, and I very much appreciate the chairman 
scheduling this hearing to take a closer look.
    So with that, let us get going. Thanks.
    Senator Young. Well, thanks so much, Senator Merkley.
    We will now turn to our first witness, Mr. Moore. Mr. 
Jonathan Moore serves as Principal Deputy Assistant Secretary 
for International Organizations at the State Department. He is 
a career member of the senior Foreign Service with decades of 
diplomatic experience. Mr. Moore, your full statement will be 
included in the record, without objection. So if you could 
please keep your remarks to no more than 5 minutes or so, we 
would certainly appreciate it so that members of the committee 
can engage with you on their questions. Mr. Moore?

    STATEMENT OF JONATHAN MOORE, PRINCIPAL DEPUTY ASSISTANT 
SECRETARY, BUREAU OF INTERNATIONAL AFFAIRS, U.S. DEPARTMENT OF 
                     STATE, WASHINGTON, DC

    Mr. Moore. Chairman Young, Ranking Member Merkley, thank 
you very much for the opportunity to appear before you today.
    As you said, Mr. Chairman, I am here on behalf of the State 
Department's Bureau of International Organization Affairs. We 
are dedicated to ensuring that the views of the administration 
and the values of the American people are accurately reflected 
and respected in multilateral fora, including in United Nations 
resolutions, statements, reports, correspondence, and 
activities.
    In addition to our foreign affairs professionals, we are 
extremely fortunate to have energetic, expert, informed, and 
influential ambassadors and permanent representatives in New 
York, Geneva, Rome, Montreal, Vienna, and Nairobi. Thank you 
very much for including Ambassador Kip Tom in this hearing.
    Mr. Chairman, as the ranking member cited as well, the 
United States played the lead role in founding the United 
Nations nearly 75 years ago, and we continue to host the U.N. 
Security Council and General Assembly in New York. The U.N. and 
other international organizations have key responsibilities on 
the global stage, and American leadership is crucial.
    The challenges we face are real: active conflicts, 
humanitarian crises, terrorism, threats to global health.
    The opportunities are also real from protecting 
intellectual property to improving aviation safety, reinforcing 
human rights, and helping people in need.
    The administration has repeatedly demonstrated its 
determination to promote American interests and prosperity in 
and through international organizations.
    As you noted, Mr. Chairman, the United States remains by 
far the largest financial contributor to the U.N., well over $9 
billion last year, the vast majority of which supports 
humanitarian response efforts.
    U.N. peacekeeping operations are among the most effective 
mechanisms to address global challenges to international peace 
and security and remain an essential tool in protecting the 
most vulnerable populations.
    Across the multilateral system, the administration's 
commitment to reform is unwavering. Much more can and must be 
done to cut waste and overlap, improve hiring practices, 
including for American citizens, and embrace transparency.
    Eliminating sexual exploitation and abuse is another 
critical aspect of reform, both in peacekeeping operations and 
throughout U.N. agencies.
    Reform also extends to fixing parts of the multilateral 
system that have failed to keep pace with global trends. At the 
Universal Postal Union, grossly outdated pricing systems 
created market distortions that harmed U.S. business. In 
October 2018, the President announced his intent to withdraw 
from the UPU unless corrective action was taken. Over the 
following year, we coordinated intensive diplomatic outreach 
and accomplished that goal, with the result that U.S. 
businesses will no longer face severe disadvantages related to 
the international shipping of small packages. This is just one 
example.
    The U.N. Human Rights Council, however, as cited, is a less 
positive example. Our efforts to spur reform of the council 
were genuine and sustained, but it remains fundamentally 
broken. Nevertheless, with the strong support of Congress, the 
United States remains vigorously engaged in protecting human 
rights around the world. My colleague, Scott Busby, will speak 
to this.
    As a further example of our multilateral engagement, the 
administration is considering our return, with the consent of 
Congress, to the U.N. World Tourism Organization, recognizing 
that tourism is a significant economic driver in many areas of 
the United States.
    Mr. Chairman, as we approach the U.N.'s 75th anniversary, 
we need the U.N. to remain relevant and serve our national 
interests, particularly as other centers of power, such as 
China, become increasingly assertive.
    Over its history, the U.N. has been responsible for some 
impressive successes and some spectacular failures. Your 
attention and that of Congress are invaluable in helping us 
serve the United States and keep the U.N. on track.
    Thank you again for the opportunity to discuss these and 
other important issues today. I look forward to my colleagues' 
testimony and to your questions.
    [The prepared statement of Mr. Moore follows:]

                  Prepared Statement of Jonathan Moore

    Chairman Young, Ranking Member Merkley, and Members of the 
Subcommittee, thank you very much for the opportunity to appear before 
you today.
    I'm here on behalf of the State Department's Bureau of 
International Organization Affairs. We are dedicated to ensuring that 
the views of the administration and the values of the American people 
are accurately reflected and respected in multilateral fora, including 
in United Nations resolutions, statements, reports, correspondence, and 
activities.
    In addition to our foreign affairs professionals, we are extremely 
fortunate to have energetic, expert, informed, and influential 
ambassadors and permanent representatives in New York, Geneva, Rome, 
Montreal, Vienna, and Nairobi. Thank you for including Ambassador Kip 
Tom in this hearing; he will speak to his perspectives from our mission 
to the U.N. in Rome.
    Mr. Chairman, the United States played the lead role in founding 
the United Nations nearly 75 years ago, and continues to be the proud 
host of the U.N. Security Council and General Assembly in New York. The 
U.N. and other international organizations have key responsibilities on 
the global stage, and American leadership is crucial.
    The challenges we face are real--active conflicts, humanitarian 
crises, terrorism, and threats to global health.
    The opportunities are also real--from protecting intellectual 
property to improving aviation safety, reinforcing human rights 
protections, and helping people in need.
    The administration has repeatedly demonstrated its determination to 
promote American interests and prosperity in and through international 
organizations.
    As you know well, Mr. Chairman, the United States remains by far 
the largest financial contributor to the United Nations--well over 9 
billion dollars last year, the vast majority of which supports 
humanitarian response efforts.
    U.N. peacekeeping operations are among the most effective 
mechanisms to address global challenges to international peace and 
security, and remain an essential tool in protecting the most 
vulnerable populations.
    It's important to note that the U.N. has recently concluded peace 
operations in Cote d'Ivoire and Liberia, and that the peacekeeping 
mission in Haiti has transitioned to a special political mission.
    Across the multilateral system, the administration's commitment to 
reform is unwavering. Much more can and must be done to cut waste and 
overlap, improve hiring practices, and embrace transparency.
    Eliminating sexual exploitation and abuse is another critical 
aspect of reform, both in peacekeeping operations and throughout U.N. 
agencies.
    Reform also extends to fixing parts of the multilateral system that 
have failed to keep pace with global trends. At the Universal Postal 
Union, grossly outdated pricing systems created market distortions that 
harmed U.S. business. In October 2018, the President announced his 
intent to withdraw from the UPU unless corrective action was taken.
    Over the following year, we coordinated intensive diplomatic 
outreach and accomplished that goal, with the result that U.S. 
businesses will no longer face severe disadvantages related to the 
international shipping of small packages.
    This is just one example of how the administration is scrutinizing 
international organizations to guarantee that our international 
commitments do not result in unfair or inequitable treatment for the 
United States.
    The U.N. Human Rights Council is a less positive example. Our 
efforts to spur reform of the Council were genuine and sustained, but 
it remains fundamentally broken. Nevertheless, with the strong support 
of Congress, the United States remains vigorously engaged in protecting 
human rights around the world. My colleague, Scott Busby, will speak to 
this.
    As a further example of our multilateral engagement, the 
administration is considering our return--with the consent of 
Congress--to the U.N. World Tourism Organization, recognizing that 
tourism is a significant economic driver in many areas of the United 
States.
    As we approach the U.N.'s 75th anniversary, we need the U.N. to 
remain relevant and serve our national interests, particularly as other 
centers of power such as China become increasingly assertive.
    Mr. Chairman, over its history, the U.N. has been responsible for 
some impressive successes and some spectacular failures. Your 
attention, and that of Congress, are invaluable in helping us serve the 
United States, and keep the U.N. on track. Thank you again for the 
opportunity to discuss these and other important issues today. I look 
forward to responding to your questions.

    Senator Young. Thank you, Mr. Moore.
    Our next witness is Ambassador Kip Tom. Ambassador Tom 
serves the United States now at the United Nations Agencies for 
Food and Agriculture in Rome. He is a farmer with a lifetime of 
agricultural and development experience, and I would be remiss 
if I did not mention his most important attribute. He happens 
to be a fellow Hoosier. Mr. Ambassador, please proceed.

STATEMENT OF HON. KIP TOM, REPRESENTATIVE TO THE UNITED NATIONS 
  AGENCIES FOR FOOD AND AGRICULTURE, U.S. MISSION TO THE U.N. 
                       AGENCIES, ROME, IT

    Ambassador Tom. Chairman Young, Ranking Member Merkley and 
to all members of the committee, thank you for the opportunity 
to appear here today.
    The U.S. Mission to the United Nations Agencies in Rome 
represents the United States' interests to the three U.N. 
principal organizations dedicated to food and agriculture, as 
well as our three international organizations handling the rule 
of law, harmonization of commercial law, and cultural heritage 
preservation.
    As a successful seventh generation farmer and businessman, 
I came into this job knowing what it takes to grow a business, 
create jobs, and empower youth. I also came into this position 
appreciating the strong leadership of this committee and the 
United States on global food security. After more than 6 months 
in Rome, I am pleased to report to you on the central 
leadership role that the United States takes at the United 
Nations as we advance our nation's interests.
    First, the World Food Programme, or WFP, is in the good 
hands under the leadership of Executive Director David Beasley, 
the former Governor of South Carolina. The scale of 
humanitarian need and forced displacement around the world is 
unprecedented, and WFP provided food, cash-based transfers, and 
commodity vouchers to over 86 million people in 2018. The 
United States remains a leader in generosity and assistance, as 
we are likely to donate nearly $3 billion USD through the WFP 
this year alone. With a staggering 821 million people globally 
who are under-nourished, WFP demonstrates the value of the 
international community coming together under strong U.S. 
leadership to deliver critical lifesaving support to so many of 
the world's most vulnerable. Our continued leadership is saving 
lives and furthering the interests of our country each and 
every day.
    The Food and Agriculture Organization, or FAO, is equally 
critical to American interests, given its role in Codex 
Alimentarius and setting the food standards that give the 
framework for American farmers and food companies to be the 
leading exporter of agricultural products globally. FAO must 
also provide the tools and policy support for agriculture 
practitioners and rural communities to transform in response to 
modern challenges. These tools should include biotechnology and 
other innovations so farmers can make sustainable choices. If 
FAO works the way it should by enhancing people's livelihoods 
and economic potential in all communities, we can advance key 
American objectives, including by addressing some of the root 
causes of conflict and economic migration. Simply put, if we do 
not get the FAO right, we can never put enough money into the 
World Food Programme.
    However, there are challenges at FAO. Like other U.N. 
agencies, FAO needs to address issues such as opaque hiring 
practices, waste and overlap, and concerns about misconduct. 
FAO, like U.N. agencies, has just begun to undertake specific 
commitments to fight sexual exploitation and abuse of 
humanitarian workers operating its auspices. FAO is under new 
leadership, with former Chinese Vice Minister of Agriculture, 
Dr. Qu Dongyu, taking office in August of this year. As Dr. Qu 
himself has said, we can and must hold FAO's leadership to 
account in ensuring that FAO is an organization that meets the 
interests of all member states and directly addresses the 
significant challenges facing rural communities today.
    Dr. Qu has promised to improve FAO's models by giving 
farmers expanded access to all tools and knowledge to help them 
feed themselves and grow their economies. He also recognizes 
that the world is changing and his team needs to increase 
partnerships with the private sector to ensure agriculture and 
rural communities are economically sustainable. We will both 
hold FAO and Dr. Qu to these promises.
    With this leadership change, the strong U.S. voice at the 
FAO is more critical than ever. We provide more than $100 
million in assessed contributions annually and almost an equal 
amount in voluntary funding to support critical work such as 
addressing animal and plant health globally and responding to 
agricultural crises. But we are also working to ensure that FAO 
is held accountable and is transparent in decision-making and 
crafting the programs that truly impact the global community.
    I am proud of our strong team at U.S. U.N. Rome Mission as 
they work daily to ensure American citizens are equitably 
represented amongst the FAO employees, including at the senior 
level. Our scientists and agriculture experts, for instance, 
are best in class. We need the critical thinking skills and 
evidence-based decision-making they bring to the table for 
discussions about agriculture policies and tools. We also seek 
to ensure a fair playing field for American agricultural 
interests through negotiations and policies on agriculture and 
standards.
    Today I am proud to uphold the work we do in Rome as a 
clear example demonstrating that the United States remains a 
central leader at the United Nations and in the multilateral 
sphere. We need to increase our presence to further American 
interests globally. As a business leader, I have always 
believed that there is nothing more important to a leader's 
success than the ability to unify those with different 
backgrounds and interests behind a common purpose. We see this 
daily at the U.N. agencies in Rome, and with your support, we 
will continue our work to ensure American leadership in 
addressing food insecurity and the rule of law around the 
world.
    Thank you, and I look forward to your questions.
    [The prepared statement of Ambassador Tom follows:]

                Prepared Statement of Ambassador Kip Tom

    Chairman Young, Ranking Member Merkley, and all Members of the 
Committee, thank you for the opportunity to appear here today.
    The U.S. Mission to the United Nations Agencies in Rome represents 
the United States' interests to the three U.N. principal organizations 
dedicated to food and agriculture, as well as three international 
organizations handling the rule of law, harmonization of commercial 
law, and cultural heritage preservation. As a successful seventh-
generation family farmer, I came into this job knowing what it takes to 
grow agriculture, create jobs, and empower youth. I also came into this 
position appreciating the strong leadership of this Committee and the 
United States on global food security. After more than 6 months in 
Rome, I am pleased to report to you on the central leadership role that 
the United States takes at the United Nations, as we advance our 
nation's interests.
    First, the World Food Programme (or WFP) is in good hands under the 
leadership of Executive Director David Beasley, the former Governor of 
South Carolina. The scale of humanitarian need and forced displacement 
around the world is unprecedented, and WFP provided food, cash-based 
transfers, and commodity vouchers to over 86 million people in 2018. 
The United States remains a leader in generosity and assistance, as we 
are likely to donate nearly 3 billion U.S. dollars through WFP this 
year. With a staggering 821 million people globally who are 
undernourished, WFP demonstrates the value of the international 
community coming together, under strong U.S. leadership, to deliver 
critical life-saving support to so many of the world's most vulnerable. 
Our continued leadership is saving lives and furthering the interests 
of our country every day.
    The Food and Agriculture Organization (or FAO) is equally critical 
to American interests, given its role in Codex Alimentarius and setting 
the food safety standards that give the framework for American farmers 
to be the leading exporters of agricultural products globally. FAO must 
also provide the tools and policy support for agricultural 
practitioners and rural communities to transform in response to modern 
challenges. These tools should include biotechnology and other 
innovations so farmers can make informed choices. If FAO works the way 
it should, by enhancing people's livelihoods and economic potential in 
all communities, we can advance key American objectives, including by 
addressing some of the root causes of conflict and economic migration. 
Simply put, if we don't get FAO right, we simply cannot put enough 
money into WFP to meet future challenges.
    However, there are challenges at FAO. Like other U.N. agencies, FAO 
needs to address issues such as opaque hiring practices, waste and 
overlap, and concerns about misconduct. FAO, like all U.N. agencies, 
has undertaken specific commitments to fight potential sexual 
exploitation and abuse by humanitarian workers operating under its 
auspices. FAO is under new leadership, with former Chinese Vice 
Minister of Agriculture Dr. Qu Dongyu taking office in August of this 
year. As Dr. Qu himself has said, we can and must hold FAO's leadership 
to account in ensuring that FAO is an organization that meets the 
interests of all member states and directly addresses the significant 
challenges facing rural communities today.
    Dr. Qu has promised to improve FAO's models by giving farmers 
expanded access to all the tools and knowledge to help them feed 
themselves. He also recognizes that the world is changing and his team 
needs to increase partnership with the private sector to ensure 
agriculture and rural communities are economically sustainable. We will 
hold both FAO and Dr. Qu to these promises.
    With this leadership change, the strong U.S. voice at FAO is more 
critical than ever. We provide more than $100 million in assessed 
contributions annually--and a similar amount in voluntary funds--to 
support critical work such as addressing animal and plant health 
globally, and responding to agricultural crises. But w are also working 
to ensure that FAO is held accountable and is transparent in decision-
making and crafting the programs that impact the global community.
    My team works daily to ensure American citizens are equitably 
represented amongst FAO employees, including at the senior level. Our 
scientists and agriculture experts, for instance, are top-notch. We 
need the critical thinking skills and evidence-based decision-making 
they bring to the table for discussions about agriculture policies and 
tools. We also seek to ensure a fair playing field for American 
agricultural interests through negotiations and policies on agriculture 
and standards.
    The United States demonstrates similar leadership at the other 
international agencies in Rome. For example, as the president of the 
Standing Committee of the International Development Law Organization, 
we just led a process to select a strong new Director General to lead 
this critical organization in addressing rule of law challenges 
globally. This week, our negotiators are concluding a protocol to 
facilitate financing for the sale of mining, agriculture, and 
construction equipment to developing countries. We work with 
institutions like the International Fund for Agriculture Development to 
ensure low-cost loans or grants for growing new small businesses in 
rural areas, thereby generating jobs.
    Today, I am proud to uphold the work we do in Rome as a clear 
example demonstrating the United States remains a central leader at the 
United Nations and in the multilateral sphere. We need to maintain and 
increase our presence to further American interests globally. As a 
business leader, I have always believed that there is nothing more 
important to a leader's success than the ability to unify those with 
different backgrounds and interests behind a common purpose. We see 
this daily at the U.N. agencies in Rome. With your support, we will 
continue our work to ensure American leadership in addressing food 
insecurity and rule of law around the world.
    Thank you.

    Senator Young. Thank you, Mr. Ambassador.
    Our third witness, Mr. Scott Busby, serves as Deputy 
Assistant Secretary for Democracy, Human Rights, and Labor at 
the Department of State. He served his nation in a series of 
roles for over 25 years. Mr. Busby, you may now proceed.

STATEMENT OF SCOTT BUSBY, DEPUTY ASSISTANT SECRETARY, BUREAU OF 
 DEMOCRACY, HUMAN RIGHTS, AND LABOR, U.S. DEPARTMENT OF STATE, 
                         WASHINGTON, DC

    Mr. Busby. Thank you, Mr. Chairman.
    Mr. Chairman, Ranking Member Merkley, thank you for this 
opportunity to testify on how the U.S. is promoting human 
rights in multilateral fora and organizations. We are committed 
to working closely with you on this issue.
    The United States continues to work through a variety of 
multilateral and multi-stakeholder venues and mechanisms to 
educate, persuade, and fight for human rights. That said, all 
of these tools have challenges ranging from simple disagreement 
among U.N. member states to actions by malicious governments to 
thwart human rights.
    At the United Nations, the U.S. interacts with myriad U.N. 
bodies, programs, special mandate holders, and agencies that 
address human rights and democracy. From work on 
counterterrorism efforts to development, the U.S. insists that 
human rights, good governance, and respect for the rule of law 
are integral to achieving the peace, prosperity, and security 
to which these entities and the U.S. are committed.
    Thus, for instance, at the U.N. Third Committee, the body 
charged with taking up human rights issues within the General 
Assembly, the U.S. recently led or supported a variety of 
resolutions on troubling country situations, including Iran, 
North Korea, Burma, Syria, and Russia, Russian occupied Crimea, 
as well as important thematic issues like a U.S.-sponsored 
resolution on elections and democratization.
    We also seek to highlight human rights by organizing or 
joining events or statements in U.N. fora on countries or 
issues of concern. For example, during this year's U.N. General 
Assembly high-level week, the U.S. along with several other 
countries sponsored a widely publicized event on the horrible 
abuses occurring in the Xinjiang region of China. Subsequently, 
we joined 22 other countries to deliver a strong statement of 
concern at the Third Committee about the abuses taking place 
there.
    At the Security Council, we have also sought to elevate 
attention to human rights by, among other things, sponsoring 
discussions on human rights in countries like North Korea and 
Syria and supporting the inclusion of human rights and justice-
focused mandates in peacekeeping missions, where appropriate.
    We also support the U.N. Secretary-General's efforts to end 
impunity among U.N. peacekeeping forces, including by 
implementing the U.N.'s zero-tolerance policy on sexual 
exploitation and abuse and ensuring that peacekeepers are not 
drawn from security forces responsible for human rights abuses.
    Consistent with the recently released U.S. Women, Peace, 
and Security strategy, we are also steadfast advocates for 
increasing the meaningful participation of women in 
peacekeeping operations and at all levels of negotiation and 
dispute resolution.
    We also raise and act on concerns about U.N. bodies that do 
not live up to the human rights ideals of the United Nations. 
For example, we withdrew as a member of the Human Rights 
Council out of concern about the process for electing its 
members and its biased, unfair, and unacceptable singling out 
of Israel. Just last month, for instance, U.N. member states 
inexplicably elected Venezuela over Costa Rica to the council. 
While we chose to leave the council for these reasons, we will 
continue our reform efforts so that the council might realize 
its potential.
    While we are no longer members of the council, the U.S. 
does participate in the Universal Periodic Review process, 
through which every member state of the U.N. undergoes an 
evaluation of its human rights record. We have also supported 
certain country and thematic mandates and mechanisms created by 
the HRC that genuinely advance human rights including, for 
instance, country mandates on Iran, North Korea, Cambodia, 
Eritrea, Burundi, Syria, South Sudan, Venezuela, and Myanmar, 
as well as thematic mandates on freedom of expression, freedom 
of association and peaceful assembly, and freedom of religion.
    We also regularly engage with the U.N. High Commissioner 
for Human Rights and her office and support its activities in a 
number of countries and on a range of issues.
    Moreover, we continue to strongly support the International 
Labor Organization, which serves as a key U.S. partner for 
combating exploitative child labor and human trafficking, 
promoting worker rights, and improving working conditions.
    In addition to our work at the U.N., we continue to 
actively promote human rights and democracy in regional 
organizations and other multilateral and multi-stakeholder 
initiatives. For instance, for more than four decades, the 
United States has been the foremost champion of human rights 
within the Organization for Security and Cooperation in Europe. 
Among other things, we support OSCE missions in Ukraine, the 
Balkans, and Central Asia that work with host governments and 
civil society to monitor and advance human rights, the rule of 
law, good governance, and rights-respecting approaches to 
security.
    Closer to home, the Department also works with the 
Organization of American States and the inter-American human 
rights system to promote and defend the democratic principles 
in the Inter-American Democratic Charter. For instance, in June 
at the OAS General Assembly, we led efforts to adopt new text 
paving the way for coordinated action to hold the former Maduro 
regime accountable for its ongoing violations of human rights 
and democratic principles.
    We also contribute similarly to the African Union and its 
organs to build their capacity to promote human rights.
    In recent years, we have also strongly supported the 
establishment of new multi-stakeholder processes that bring 
together likeminded governments and other key players such as 
business and civil society to work on specific human rights 
problems. We have played a leading role in developing and 
sustaining a number of such initiatives, which are described in 
my written testimony.
    Promoting human rights and democracy in international fora 
is a lengthy, iterative, and often slow process. Since the end 
of the Cold War, we have made progress, but there has been 
backsliding, as well as significant pushback. China, as both of 
you mentioned, seeks to weaken human rights action in 
international fora with flowery resolutions that use benign 
phrases like ``mutually shared beneficial cooperation'' or 
``win-win'' outcomes. Russia pushes resolutions that try to 
elevate undefined traditional values over rights in the 
Universal Declaration of Human Rights. And many try to ensure 
that independent NGOs have no voice at the U.N. Despite these 
efforts, we continue to believe that the U.N. and other 
international fora are crucial arenas in which to advance human 
rights, and we will continue to fight there for the unalienable 
rights and fundamental freedoms in America's founding documents 
and the Universal Declaration.
    Thank you very much.
    [The prepared statement of Mr. Busby follows:]

                   Prepared Statement of Scott Busby

    Chairman Young, Ranking Member Merkley, and distinguished Members 
of the Subcommittee on Multilateral International Development and 
Multilateral Institutions, thank you for this opportunity to testify on 
how the U.S. is promoting human rights in multilateral fora and 
organizations. I commend the committee for its attention to these 
issues. The Bureau of Democracy, Human Rights and Labor at the State 
Department is committed to working closely with the committee to 
address pressing human rights problems around the globe through 
multilateral organizations.
    On the occasion of the seventieth anniversary of the Universal 
Declaration on Human Rights, Professor Mary Ann Glendon wrote:
    Ultimately, promoting human rights depends on deep support across 
cultural and ideological divides. This is what Eleanor Roosevelt 
envisioned, when she declared that documents expressing ideals ``carry 
no weight unless the people know them, unless the people understand 
them, unless the people demand that they be lived." \1\
---------------------------------------------------------------------------
    \1\ https://www.the-american-interest.com/2018/12/19/the-universal-
declaration-turns-70/
---------------------------------------------------------------------------
    These words provide insight on what any successful promotion of 
human rights and democracy, particularly in a multilateral setting must 
do--build support across divides. The Government of the United States 
works through a variety of multilateral and multi-stakeholder venues 
and mechanisms to educate, persuade, and fight for human rights. Our 
task in these institutions is to establish and sustain platforms where 
governments can seek to reach consensus on international human rights 
law, where human rights defenders and civil society voices can be 
heard, and where the international community can call to account those 
governments and individuals that violate or abuse human rights. That 
said, all of these mechanisms have challenges ranging from simple 
disagreement among U.N. member states to actions by malicious 
governments to thwart attention to human rights.
    At the United Nations, the U.S. interacts with myriad U.N. bodies, 
programs, special mandate holders, and agencies that address human 
rights and democracy issues. From work on counterterrorism efforts to 
development, the U.S. insists that human rights, good governance, and 
respect for the rule of law are integral to achieving the peace, 
prosperity, and security to which these entities and the U.S. are 
committed. During UNGA High Level Week, for instance, the President 
hosted the Global Call to Protect Religious Freedom with the Secretary 
General of the U.N. Over 130 delegations from U.N. member states, 
observers, and U.N. agencies attended, as well as religious leaders, 
business leaders, and civil society.
    At the U.N. Third Committee, the body charged with taking up human 
rights issues within the General Assembly, the U.S. supports a variety 
of resolutions on troubling country situations and important thematic 
issues. The Third Committee is concluding its session now and we have 
actively advocated for resolutions on the human rights situations in 
Iran, North Korea, Burma, Syria, and Russian-occupied Crimea, as well 
as the U.S.-sponsored resolution on elections and democratization. Last 
year, we led efforts to get the Third Committee to pass important 
resolutions on Freedom of Expression and Freedom of Association and 
Peaceful Assembly.
    We also seek to highlight human rights by organizing and co-
sponsoring events and marshalling joint statements in U.N. forums on 
countries or issues of concern. For example, during this year's U.N. 
General Assembly high-level week, the U.S. along with several other 
countries sponsored an event on the horrible abuses occurring in the 
Xinjiang region of China. Hearing from Uighurs who have suffered or 
whose families have experienced abuses, we learned more about the 
repressive measures the Chinese Communist government has undertaken. We 
brought the international community together to hear about mass 
detentions in internment camps; pervasive, high-tech surveillance; 
draconian controls on expressions of cultural and religious identity; 
and coercion of individuals to return from abroad to an often perilous 
fate in China, and we challenged the international community to do 
more. Subsequent to the event, we joined 22 other countries to deliver 
a strong joint statement of concern at the Third Committee about the 
abuses taking place in Xinjiang. The U.S. hosted a similar event on 
Xinjiang on the margins of the March U.N. Human Rights Council session 
and has hosted similar events on Nicaragua in conjunction with its 
Universal Periodic Review; on Venezuela, also on the margins of the 
March U.N. Human Rights Council; and, together with the European Union, 
on female detainees in Syria on the margins of the July U.N. Human 
Rights Council session.
    At the Security Council, we have sought to elevate attention to the 
link between human rights and international peace and security by, 
among other things, sponsoring discussions on the human rights 
situation in countries like North Korea and supporting the inclusion of 
human rights and justice-focused mandates, and strengthening of 
civilian institutions in peacekeeping missions, where appropriate. For 
example, in Haiti over the last year, we successfully pushed for the 
reconfiguration of the peacekeeping mission to focus on justice, 
police, and the rule of law and added a robust human rights monitoring 
mandate, including recognition that more must be done to counter 
pervasive gender-based violence. As the justice mission in Haiti 
progressed, the U.N. Security Council transitioned from a justice-
focused peacekeeping operation to a special political mission. The U.N. 
special political mission in Haiti now joins other U.N. civilian 
missions charged with strengthening political stability and good 
governance while monitoring and reporting on human rights abuses, 
including in Afghanistan, Guinea-Bissau, Iraq, Libya, and Somalia. In 
the Central African Republic, we have supported the peacekeeping 
mission's mandate to assist the CAR specialized domestic court to hold 
accountable those responsible for atrocities. Last month, we noted the 
critical role the U.N.-AU Mission in Darfur plays in promoting 
accountability for human rights abuses.
    At the United States' urging, the U.N. Security Council in August 
held the first standalone session on the Assad regime's ongoing 
practice of arbitrarily detaining, torturing, and extrajudicially 
killing hundreds of thousands of Syrian civilians in order to silence 
calls for reform and change. The session provided an unprecedented 
platform for raising the concerns of Syrian civil society, as well as 
former detainees, and bolstered international consensus on the 
importance of tangible progress towards the release of those 
arbitrarily detained in Syria, greater access for families to 
information on their detained loved ones, and improved prison 
conditions as a key component of efforts towards a political resolution 
to the Syria conflict in line with UNSCR 2254.
    We also support the U.N. Secretary-General's efforts to end 
impunity among U.N. peacekeeping forces, including implementing the 
U.N.'s zero-tolerance policy on sexual exploitation and abuse. As the 
leading bilateral partner for peacekeeping capacity-building 
assistance, the U.S. demands the best of our partners and of ourselves 
as we support effective development and delivery of peacekeeping 
training that meets or exceeds U.N. standards. We regularly reiterate 
the importance of pre-deployment and in-mission training of all 
peacekeeping personnel on preventing sexual exploitation and abuse and 
gender-based violence, including in context-specific scenario-based 
training and early-warning preparedness.
    We have also supported the U.N. Secretariat's efforts to ensure 
that peacekeepers are not drawn from security forces that have been 
responsible for human rights abuses. For instance, the U.N. recently 
suspended future Sri Lankan Army deployment to peacekeeping operations 
in response to Lieutenant General Shavendra Silva being appointed as 
Sri Lanka's army chief, a person who is credibly alleged to be 
responsible for gross violations of human rights. We are also steadfast 
advocates for increasing the meaningful participation of women in 
peacekeeping operations, which results in ``higher reporting of sexual 
and gender-based violence, as well as lower incidents of sexual 
exploitation and abuse.'' \2\ The State Department's Global Peace 
Operations Initiative (GPOI) increases women's participation in 
peacekeeping training and peacekeeping deployments. Since 2007, more 
than 9,300 female peacekeepers have participated in GPOI training 
events. Moreover, since 2010, GPOI partners have increased the number 
of deployed women military peacekeepers by 105 percent, while non-GPOI 
countries have only increased their numbers by 21 percent.
---------------------------------------------------------------------------
    \2\ https://www.un.org/press/en/2019/sc13773.doc.htm
---------------------------------------------------------------------------
    Women peacekeepers are able to more effectively engage with women 
at the local level, and therefore, can gather more valuable information 
on threats to the civilian population, including conflict-related 
sexual violence, than their male counterparts. Similarly, consistent 
with the recently released U.S. Women, Peace, and Security Strategy, we 
are actively promoting the meaningful participation of women at all 
levels of dispute resolution, including in decision-making and 
negotiating bodies and meditating teams. We know that meaningfully 
including women in decision making and peace processes, highly 
contributes to whether that peace process will be successful and 
sustainable.
    Furthermore, throughout the U.N. system, the United States works to 
ensure that the voices of human rights defenders are heard and that 
they may speak without fear of reprisals. In this respect, one of our 
focuses is on the Economic and Social Council's NGO accreditation 
committee, which is populated by a number of states that prefer to 
silence human rights defenders and non-governmental organizations. In 
this respect, we recognize the unique threats that women human rights 
defenders face and have mobilized attention and support to this issue. 
We are also strong supporters of the Secretary-General's efforts to 
collect and call out reprisals taken against members of civil society 
for their participation in U.N.-related meetings or processes. And we 
have fought to counteract efforts by other countries to prevent human 
rights defenders from speaking at the U.N.
    We also raise concerns about U.N. bodies that do not live up to the 
human rights mandates of the United Nations, and act on those concerns 
when necessary. For example, we withdrew as a member of the Human 
Rights Council out of concern about the criteria and process for 
electing its members, which has resulted in some of the world's worst 
human rights abusing governments serving on the Council. Just last 
month, for instance, U.N. member states inexplicably elected Venezuela 
to join the HRC over Costa Rica--an outrageous outcome for a body 
founded to advance human rights. Similarly, we object to the Human 
Rights Council's biased, unfair, and unacceptable singling out of 
Israel, which remains the only country that has a Council agenda item 
specifically devoted to it. While we chose to leave the Council for 
these reasons, we will continue our efforts to try to reform the 
Council to address these shortcomings and realize its potential.
    While we do not engage on Human Rights Council resolutions, the 
U.S. does participate in Universal Periodic Review--a process in which 
every member state of the U.N. submits a self-evaluation of its 
domestic human rights practices and engages in an interactive dialogue 
with other governments their recommendations for improvement. As every 
U.N. member state participates in the UPR, we use the process to raise 
our concerns and make human rights recommendations to every country in 
the world. We continue to believe that the UPR process sets benchmarks 
that the country under review agrees to uphold, allowing the 
international community to hold every member state accountable for its 
commitments. We have also supported certain country and thematic 
mandates and mechanisms created by the HRC that genuinely advance human 
rights, including, for instance, the special rapporteurs on Iran, North 
Korea, Cambodia, and Eritrea; the Commissions of Inquiry on North 
Korea, Burundi,, and Syria; the Commission on Human Rights in South 
Sudan; the Fact Finding Missions on Venezuela and Myanmar; the thematic 
rapporteurs on freedom of expression and freedom of peaceful assembly 
and association; and the independent expert on sexual orientation and 
gender identity, among others.
    We also regularly engage with the High Commissioner for Human 
Rights and her office (OHCHR) and support their activities in a number 
of countries and on a range of issues.
    OHCHR has field presences throughout the world that provide 
technical assistance, monitor human rights, serve as the human rights 
component of peacekeeping operations and respond to immediate crises. 
The U.S. is the second largest donor to OHCHR so far in 2019.
    We further support work on human rights, good governance and 
democracy issues in a variety of other U.N. independent agencies, 
offices, including U.N. Women, UNICEF, the U.N. Development Program, 
the International Labor Organization, the International 
Telecommunications Union, the U.N. Democracy Fund, the U.N. Office of 
Drugs and Crime, and the World Bank. The United States remains UNICEF's 
largest donor both in terms of core funding and overall resources, 
helping the U.N.'s flagship agency promote and protect children's 
welfare and well-being.
    At the ILO, which serves as a key U.S. partner for achieving 
international labor-related objectives, such as combating exploitive 
child labor and human trafficking, promoting worker rights, and 
improving working conditions we have focused on the problem of forced 
labor in Myanmar and have supported the Government of Qatar's attempts 
to reform its kafala system, which can facilitate forced labor. The 
tripartite nature of the ILO--where governments, workers and business 
all have an active role--encourages a balanced and representative 
discussion on international labor standards.
    The U.S. continues to actively engage with the U.N. and other 
multilateral institutions to enhance coordination on atrocity 
prevention, mitigation, and response efforts, while also advancing the 
institutionalization of this agenda within the U.N. system. 
Additionally, we are a member of the Group of Friends for the 
Responsibility to Protect (R2P) where we continue to reaffirm the 
United States' commitment to atrocity prevention and strengthen U.S. 
ties to partner nations and civil society actors. Further, we regularly 
participate in exchanges with likeminded countries to develop shared 
recommendations and coordinated action to mitigate the risk of mass 
atrocities.
    We also support mechanisms that lay the ground for accountability 
for atrocities through our diplomatic and/or financial support to a 
number of U.N. investigative mechanisms, including the U.N. 
International Impartial and Independent Mechanism (IIIM) for Syria, the 
U.N. Investigative Team to Promote Accountability for Crimes Committed 
by Da'esh (UNITAD), and the U.N. Independent Investigative Mechanism 
for Myanmar (IIMM).
    In addition to our work at the U.N., the State Department does a 
great deal of human rights and democracy promotion work in regional 
organizations and other multilateral and multi-stakeholder initiatives. 
For instance, for more than four decades, the United States has been 
the foremost champion within the 57-member Organization for Security 
and Cooperation in Europe (OSCE) of fundamental freedoms and of human 
rights defenders targeted for repression by their governments. The 
United States uses weekly meetings of the OSCE's Permanent Council to 
speak out about ongoing human rights concerns--from abuses against 
Crimean Tatars and others opposed to Russia's occupation of Ukraine's 
Crimea, to Russia's persecution of Jehovah's Witnesses and members of 
other religious minority groups, the undermining of the rule of law in 
Turkey, the crackdown on dissent in Azerbaijan, the plight of political 
prisoners in the post-Soviet states of Central Asia, and the rise in 
anti-Semitism and other forms of intolerance in the OSCE region. We 
also are a leading participant in the OSCE's annual Human Dimension 
Implementation Meeting (HDIM) in Warsaw, which constitutes the largest 
human rights gathering in Europe and Eurasia, drawing hundreds of 
frontline civil society activists and representatives of human rights 
advocacy organizations in addition to governments.
    We also support the work of the OSCE's independent institutions, 
such as its High Commissioner on National Minorities, its 
Representative on Freedom of the Media, and its Office for Democratic 
Institutions and Human Rights (ODIHR). ODIHR's methodologies are 
considered the world's gold standard for independent elections 
observation. We also support OSCE field missions in Ukraine, the 
Balkans, and Central Asia that work with host governments and civil 
society to advance human rights, the rule of law, good governance, and 
rights-respecting approaches to security. The OSCE's Special Monitoring 
Mission provides invaluable reporting on the mounting human cost of 
Russia's continuing aggression against Ukraine. We use OSCE diplomatic 
tools to spotlight other serious abuses. For example, in December 2018, 
the United States and 15 other countries invoked the OSCE's Moscow 
Mechanism in response to reports of serious abuses committed against 
LGBTI individuals, human rights monitors, and others in Russia's 
Republic of Chechnya. The resulting fact-finding Mission drew 
unprecedented international attention to the alarming human rights 
conditions in Chechnya, which the Kremlin allows to continue with 
impunity.
    In addition, the U.S. also engages with and supports the work of 
the Council of Europe (COE), which promotes democracy and the rule of 
law in its 47 member states, including all EU members. The U.S. is an 
observer to the COE and a full member of some COE subsidiary bodies, 
including the European Commission for Democracy through Law (Venice 
Commission) and the Group of Countries Against Corruption (GRECO).
    Closer to home, the Department works through the Organization of 
American States and the Inter-American human rights system to promote 
and defend, throughout the entire hemisphere, the democratic principles 
enshrined in the Inter-American Democratic Charter. We actively 
participate in Permanent Council meetings on matters of shared concern, 
as well as other bodies including sessions of the Inter-American 
Commission on Human Rights, the Inter American Women's Commission 
(CIM), and the regional anti-corruption peer review mechanism (MESICIC) 
supporting the Inter American Convention Against Corruption.
    For instance, at the June OAS General Assembly in Medellin, we took 
decisive action to strengthen the OAS's role in forging a hemisphere 
distinguished by democracy, peace, respect for human rights, and 
cooperation. In particular, we adopted new texts paving the way for 
coordinated action to hold the former Maduro regime accountable for its 
ongoing violations of democratic order. We also established a clear 
process to review the state of democracy in Nicaragua, through a new 
high-level fact finding commission of the OAS. And we sponsored the 
first ever OAS text on religious freedom, allowing us to partner with 
countries around the hemisphere to strengthen best practices and 
dialogue in support of liberty and religion or belief.
    As an observer at the African Union (AU), we have worked with the 
AU and its organs to build their capacity to promote human rights, 
strengthen democratic governance, and support the rule of law and 
access to justice. For instance, the United States is working with the 
AU to stand up the Hybrid Court for South Sudan to hold perpetrators of 
violations of international law and applicable South Sudanese law 
accountable.
    We have long believed that getting like-minded governments and 
other key stakeholders such as business and civil society together to 
work on specific human rights problems can reap benefits and have 
strongly supported the establishment of such processes in recent years. 
We have been active participants in the Organization for Economic 
Cooperation and Development (OECD) as it develops guidance for 
companies on respecting human rights. The OECD is a venue to share best 
practices and help develop guidance alongside governments, companies, 
NGOS, and labor and provides an important venue to discuss corporate 
implementation of international best practices around human rights. In 
the wake of the human rights tragedies in the Niger delta in the 1990s, 
the U.S. led the founding of the Voluntary Principles on Security and 
Human Rights--an initiative involving governments, businesses, and 
civil society organizations that seeks to promote human rights in the 
security operations of extractive companies. We have also played a 
leading role in developing and sustaining the International Code of 
Conduct for Security Providers and its related association, which seeks 
to encourage all private security providers to respect human rights; 
the Freedom Online Coalition--a group of like-minded governments 
committed to advancing human rights online; the Centre for Sport and 
Human Rights, which is committed to addressing human rights concerns 
throughout the lifecycle of mega-sporting events; the Equal Rights 
Coalition, a group of likeminded governments that addresses human 
rights and dignity of LGBTI individuals, the Open Government 
Partnership--a multi-stakeholder initiative in which governments and 
civil society work together to promote accountable governance and 
empower citizens, and the Community of Democracies--the primary 
international grouping of governments working to advance democratic 
values and principles globally.
    Promoting human rights and democracy in international fora is a 
lengthy, iterative, and often slow process that moves in fits and 
starts. It is a long-term endeavor. It was only in 1948 that the 
Universal Declaration on Human Rights was approved. The High 
Commissioner's position was created in 1993. Since the end of the Cold 
War, we have made progress, but there is also significant pushback as 
well as backsliding. The People's Republic of China seeks to weaken 
respect for human rights and deflect and water-down human rights 
criticism and action in international fora with flowery resolutions 
that use seemingly benign phrases like ``mutually shared beneficial 
cooperation'' or ``win-win'' outcomes to advance its policy priorities. 
Russia pushes resolutions that try to elevate indeterminate 
``traditional values'' over the rights enshrined in the Universal 
Declaration. Cuba, Venezuela, Iran, Russia, China and others fight to 
ensure that NGOs that are critical of governments will have no voice at 
the U.N. These efforts seek to avoid or thwart accountability for human 
rights violations and abuses at the U.N. and elsewhere. On the 
contrary, we believe that the U.N. and other international fora are 
crucial arenas in which to advance human rights internationally and we 
will continue to fight for American values and for the unalienable 
rights and fundamental freedoms in the Universal Declaration of Human 
Rights.

    Senator Young. Well, thank you, Mr. Busby.
    I appreciate each of you gentlemen for your testimonies, 
and we will be adjourning and then going to vote, as I said 
earlier, and then back as soon as possible. So in just minutes, 
I know Senator Merkley and I will return. We are eager to hear 
your answers to all of our questions.
    [Recess.]
    Senator Young. The subcommittee reconvenes. I thank 
everyone for their patience, including the tens of viewers we 
have on C-SPAN too.
    [Laughter.]
    Senator Romney. I was going to say that would be our peak.
    Senator Young. That is right.
    My apologies to Hoosier Brian Lamb.
    So, listen, we will run with questions for about 30 minutes 
because I am very eager to dive into those. I am actually going 
to take the chairman's prerogative here, if the ranking member 
is ready, and defer to him, allow him to begin questions. We 
will do 7-minute rounds until we get to about the 30-minute 
mark, and then we will bring on the next panel.
    Senator Merkley. Thank you very much, Mr. Chairman. I am 
happy to jump in.
    I want to start first on the human rights front. And I 
appreciate your testimony, Mr. Busby. But I am concerned. I am 
concerned that I did not hear the names of Russia in your 
presentation. I did not hear the names of the Philippines. I 
did not hear Saudi Arabia. I did not hear North Korea. It seems 
to me, as we get feedback from across the world, that the 
inconsistent advocacy for human rights and the U.S. routinely 
dissing its allies while promoting dictatorships from the Oval 
Office is really damaging our international credibility. I know 
it is your job to say otherwise, but I wanted to raise the 
concern and just hear what you have to say.
    Mr. Busby. Thank you for the question, Senator.
    I did, in fact, mention Russia and North Korea in my 
testimony. Russia in particular has undertaken several 
resolutions in the Human Rights Council, one on traditional 
values, which we have consistently opposed. And on North Korea, 
we recently agreed with the consensus on a resolution at the 
Third Committee in New York and continue to work closely with 
the special rapporteur on North Korea who is cataloging abuses 
there.
    We have not shied away from calling out human rights abuses 
in places like Saudi Arabia and the Philippines and other 
places. In Saudi Arabia, we did apply Global Magnitsky 
sanctions against I think 16 of the individuals implicated in 
the death of Jamal Khashoggi. And in the Philippines, we also 
have called attention to the unjust killings of many people in 
conjunction with the drug war there. So we are calling out 
other countries.
    We do continue to publish our annual human rights reports, 
which do cover every country in the world, and we do not pull 
any punches in those reports.
    Senator Merkley. I know you could go on at length about all 
the effects and so forth. But it does not look that way to the 
rest of the world.
    And on Saudi Arabia, do you not think there is something 
fundamentally wrong with us attacking the 16 who were following 
orders from the crown prince while ignoring the crown prince 
and promoting him as a leader we can work with in the world?
    And I must say you did mention Burma in your remarks, but 
the President of the United States has never said a single word 
about Burma. Not a single word. And he did not know what the 
Rohingya were when he had a Rohingya in his office. He said I 
think, where is that or what is that. It is very clear that 
when you have the worst genocide on the planet back 2 years 
ago, that not having the President of the United States take a 
stand on it sends a message, even when all of you in the State 
Department are working very hard. So I just wanted to express 
that concern.
    I want to turn to the role of China in the United Nations 
and specifically its increasingly assertive use of the United 
Nations, various agencies. My colleague pointed out that they 
now head a number of agencies. They have been quite assertive 
in the Human Rights Council in tabling resolutions, which is 
very concerning. They have used their influence in the General 
Assembly to neuter resolutions on peacekeeping mandates and 
funding related to human rights.
    Share a little bit with us about the strategy of how we 
address the growing role of China in the United Nations.
    Mr. Moore. Senator, thank you very much for that question.
    It is a very comprehensive problem and it is being dealt 
with in a very comprehensive way. We are working with 
coalitions at many levels and in many regions to push back on 
China's efforts to erode or co-opt the norms of the U.N. 
system, and we are strengthening those coalitions in particular 
with likeminded states. We are seeing China seeking the 
leadership of U.N. institutions, particularly those which are 
responsible for setting rules and standards. We see in many 
cases China seeking exactly those positions to subvert the 
standards and the rules of the U.N. system for its own national 
purposes. This is something which is recognized by other 
countries and other partners in the U.N. We are combating this 
again through building coalitions, through bilateral and 
multilateral diplomacy to seeking to make sure that key U.N. 
institutions have the strongest possible leaders, persons who 
are expert and who have the goals and values of the U.N. and 
all of its member states, not just China, in mind. It is a very 
comprehensive effort.
    Senator Merkley. Well, let us take an individual example. 
The International Telecommunications Union is under the 
leadership of a Chinese official, which some argue gives China 
a platform to push its concept of a digital Silk Road. Is there 
a risk that the ITU can be used to push other countries to 
adopt Chinese models of surveillance or other key issues 
related to communications?
    Mr. Moore. Senator, thank you for raising the ITU. It is 
one of those organizations that is absolutely at the top of our 
list of concerns. Our mission to the U.N. in Geneva works 
directly every day to focus on the work of ITU. We have 
directly criticized the head of the ITU for having engaged in a 
memorandum of understanding with Huawei, the Chinese company, 
on the subject of 5G. We are very concerned that the leadership 
at all levels of ITU again reflect international standards, and 
ITU should not be used by anyone, not its head and not by 
external actors for the interests of a specific country.
    Senator Merkley. Thank you. I pass it back.
    Senator Young. Mr. Romney.
    Senator Romney. Thank you, Mr. Chairman.
    And thank you to each of the participants today for your 
testimony.
    There are some people in my party, my wing of the world, if 
you will, that are very wary of international institutions of 
any kind, particularly the U.N. I got a lot of questions when I 
was campaigning about support for the U.N. They feel a degree 
of skepticism about what role these institutions have, and I 
think there is a fear that international institutions will, in 
some way, impede on American sovereignty, our right to set our 
own course and do what is in the best interests of America.
    But at the same time, these international institutions are 
shaping international standards, and those standards affect 
everything from agriculture to communications, electronics, and 
so forth. And so if you want to have America participate in the 
global economy, it would strike me as important for us to 
participate in the international institutions.
    I would also note that if we want to see, I will call them, 
malign players having less influence in international 
institutions, the only way that I know how to effectively do 
that is by having us play a greater role. And when we pull back 
from participating in international organizations, then 
obviously someone else is going to step in. It will be someone 
who considers themselves the heir apparent to become the super 
power of the world.
    So let me ask each of you. First of all, Mr. Tom, with 
regard to Chinese leadership in the Food and Agriculture 
Organization, what does that mean? What kind of things can they 
do? Is it just a nice title to have, or is there actual impact 
that might have that would affect America's farmers, America's 
growers, America's packagers, and so forth?
    Ambassador Tom. Senator, thank you for that question.
    Over the past 6 months since arrival in Rome, I can assure 
you I have spent significant time at the World Food Programme 
where we provide aid around the world. And the role of FAO was 
to create resilience and capacity. And I can share with you. On 
my many mission trips to South Sudan, Rwanda, Zimbabwe, and in 
conversations at the WFP, I can share with you that it 
continues to be a problem across the Sahel, from the east coast 
to the west coast of Africa, where we see people giving up 
hope. They migrate. And when they migrate, tens of thousands, 
sometimes hundreds of thousands go into IDP camps, some of whom 
have been there for four generations. Some give up hope from 
that and join extremist groups that are moving across Africa. 
We see people involved in human trafficking, guns movement, and 
illicit drugs. All this is because we are not holding our line 
in the continent of Africa to make sure we can have reliable 
food systems to feed people that want to stay home.
    We will work hard at the FAO to make sure that the 
standard-setting at Codex Alimentarius stands for American 
values and has a high standard to make sure that our nations in 
the global food supply remain safe. At the same time, we will 
keep a watchful eye, as we would on any nation that leads the 
Food and Agriculture Organization regardless of whether it is 
China or whoever. We would be held to those standards. So we 
have got a lot of work to do.
    Thank you.
    Senator Romney. And that certainly has wonderful salutary 
impact on other nations and the poor and those that are 
destitute around the world. Does it also have impact on us and 
our national interests?
    Ambassador Tom. It has a significant impact on our peace 
and security and our national standards to make sure that the 
United States remains safe. If we continue to see these 
migrations and these people joining Boko Haram, ISIS, al-Qaeda, 
we are not living in a safe world any longer. And if the 
population of the continent of Africa doubles in the next 32 
years, the problem exponentially grows. We have to play a role 
to making sure the world is food secure. Our own national 
security and peace counts on that.
    Senator Romney. Thank you.
    Mr. Moore, why is China becoming so actively involved in 
some of these international organizations? What are their 
objectives? What are they doing this for?
    Mr. Moore. Senator, we are seeing China taking on an 
increasingly large role. For many years, China, despite having 
a permanent seat in the Security Council, together with us and 
three other countries, took rather a passive role, hid behind 
the G77 and other blocs. Over the past few years, China is 
taking an aggressive role not looking at it from a Cold War 
perspective, what does Washington have, what does Moscow have, 
but rather seeking control of those specific U.N. institutions 
that do set rules and standards. They are engaging in this in a 
very direct and extremely aggressive way to ensure that they 
get the votes that they want, to ensure that they have the 
influence they want throughout the world, opportunities for 
their companies who, of course, in nearly every instance are 
state-owned, and that they have control of all of the world's 
regions and sympathy for policies, including the so-called Belt 
and Road Initiative and other things of which you are familiar.
    It is a concerning and comprehensive approach. It has 
forced all of us to remind ourselves what the true goals and 
values of the U.N. are and why some of those institutions 
exist. And at the same time, it has also led us to reevaluate 
some elements of the U.N. system which may not be as relevant, 
may not serve the interests of the American people, those parts 
of the U.N. where the administration has made a principal 
decision to leave them, for example, UNESCO, which previous 
administrations have stepped away from, which Israel has also 
stepped away from because of inherent anti-Semitism, or the 
Human Rights Council, which we discussed earlier, which we see, 
as I mentioned in my testimony, as fundamentally broken. We 
need to focus our energies on those parts of the U.N. system 
where again the rules and standards are set. As we heard for 
ITU, the World Intellectual Property Organization also in 
Geneva is extremely important. And there are other parts of the 
U.N. system. I would be very happy to brief you or your staff 
in a separate setting in greater detail.
    Senator Romney. Thank you.
    Mr. Busby, I am going to just end with a question here. We 
do not have time to have you necessarily respond to it, but it 
would probably be something all of you would respond to. But 
that is that China has been extremely successful in getting 
itself installed in places of significance where they can set 
standards and can influence the world. Has that happened 
because we are ineffective? Has that happened because we have 
not tried? Why have they been able to be so successful and we 
have not? Is it lack of effort on our part, just lack of 
prioritization, or is it that we just do not know how to do it?
    Senator Young. Mr. Busby, feel free to respond.
    Senator Romney. Yes, to answer that easy question.
    [Laughter.]
    Mr. Busby. Thank you, Senator, for the attention to China.
    In the human rights space, China is being equally 
aggressive. They have yet to seize any of the senior positions 
relating to human rights, but they are trying to change the 
nature of the discourse on human rights from one focused on the 
individual and the rights that accrue to the individual to a 
discourse focused on governments, on the state. So China is 
saying before we address the rights of the individual, we 
should require that the state concerned agree to that 
discussion, and that is deeply troubling to us.
    China exercises a lot of influence because, as Jonathan 
mentioned, they have a strategy through the Belt and Road 
Initiative to sort of buy off the votes of other governments. 
And that I think has been extremely successful. It is a bit 
harder for us to unilaterally do what they have done, but we 
are working to fight back by coming up with our own strategies 
for demonstrating to countries that the U.S. approach is better 
by developing programs and projects to help these countries and 
to show why it is that China's approach is simply not a healthy 
or a long-term productive approach.
    Senator Young. Thank you.
    Mr. Moore, I note that each of you indicated in various 
ways that China is ramping up its engagement in the United 
Nations and affiliated agencies. Chinese nationals--it seems 
like there has been a concerted effort to lead more specialized 
agencies for a period of time. In fact, the last three 
appointments prior to this Food and Agriculture Organization 
election, if my reading informs me correctly, occurred under 
the previous President's watch. Is that correct?
    Mr. Moore. I believe so, Mr. Chairman.
    Senator Young. And then China has used its veto to block a 
U.N. Security Council resolution 12 times by my reading since 
1971, and all but three of those vetoes occurred since 2007 and 
served to prevent Security Council action against Burma, Syria, 
Venezuela, and Zimbabwe.
    So that suggests to me--I would conclude just from that 
limited information--tell me if this inference is correct--that 
expansion of Chinese influence at the U.N. is not a new 
phenomenon, nor is it solely attributable to this 
administration.
    Mr. Moore. Mr. Chairman, I would be pleased to take the 
question to give you a more detailed response. But from what I 
know in my present position, this is something which has been 
going on for several years, including prior to the beginning of 
the present administration. They are looking for a variety of 
opportunities to build influence, to take control, to build 
indebtedness. And it must be added, Mr. Chairman, China does 
not feel remotely constrained by some of the same tools and 
legislation that we fully respect in the United States, notably 
the Foreign Corrupt Practices Act or the standards of OECD, by 
which U.S. businesses and U.S. Government operate. And those 
are formidable obstacles to us combating some of the tactics 
that China chooses to engage in.
    Senator Young. Mr. Moore, like Senator Romney indicated, I 
see great value in multilateral organizations like the one we 
created in the United Nations. And the reason I started with 
that question is to make sure that this conversation steers 
very far from any sort of partisanship, recognizing that China 
has a strategy. They have a strategy in this area as they do 
seemingly in all areas. It is part of their society. It is part 
of their economic model as well.
    With respect to China's influence at the U.N., what issues 
are of greatest concern to your bureau in terms of China's 
actions within the U.N. system?
    Mr. Moore. Mr. Chairman, we are particularly concerned 
exactly about those elements of the U.N. system which set rules 
and standards, the rules and standards which apply to all of us 
in the world, the work that the ITU does, for example, to set 
radio frequencies. There are other U.N. agencies like the U.N. 
Office of Outer Space Affairs, which is quite small based in 
Vienna. That still has huge responsibilities for any number of 
items in orbit around the earth on any given day.
    We need to make sure that throughout all of those elements 
of the U.N. system, that we are vigilant to make sure that 
those institutions do not fall solely into Chinese hands, that 
everyone in the U.N. system, including in the U.N. Secretariat, 
recognizes, again as we face nearly 75 years of the U.N., the 
principles and the standards by which the very organization was 
founded.
    Senator Young. So, Mr. Moore, briefly. You know, Secretary 
Guterres called for an inclusive, sustainable, and durable 
development, speaking at China's Belt and Road Forum in April 
of this year. In other media interactions, he has seemingly 
praised the Belt and Road Initiative such that some have seen 
it as an unofficial endorsement of China's premier development 
effort.
    Now, I have had some hearings on the Belt and Road 
Initiative, and I recognize that there is some value that 
countries receive with respect to the investment, but there is 
oftentimes predation and deception involved as well.
    So is it appropriate for the United Nations as an 
organization to endorse China's project?
    Mr. Moore. Mr. Chairman, as you note, this is a topic which 
we have raised with Secretary-General Guterres on many 
occasions. He did participate in the summit in Beijing on the 
Belt and Road, and we have stressed to him exactly as you have 
just said, the importance of ensuring that the United Nations 
does not engage in or directly support any single country's 
particular initiative, but rather looks out for the interests 
of all member states.
    Senator Young. Are there other countries sending similar 
messages to Mr. Guterres, and are you speaking from the same 
songbook, as it were?
    Mr. Moore. I would say there are any number of member 
states who agree with us that the Belt and Road Initiative, 
also referred to as ``One Belt, One Road,'' is an obstacle and 
is a concern, and it is not the task of the United Nations to 
support it, to spread word about it, or certainly to build the 
foundations of any activity on the basis of it.
    Senator Young. Thank you.
    Ambassador Tom, you are our representative in Rome where 
the Food and Agriculture Organization, or FAO, is based. You 
spoke earlier to the importance of this organization and its 
future. It is led by the recently elected Chinese national Qu 
Dongyu. There were a number of media reports about alleged 
Chinese manipulation and strong-arm tactics as part of that 
election.
    What did you and your counterparts witness at the U.N. 
mission in Rome in the events surrounding that election?
    Ambassador Tom. Our observations were that the Chinese had 
been focused on this role for a long time, maybe 8 or 10 years, 
as all these U.N. organizations. They had a very strong 
presence leading up to that vote.
    There was no means to try to change the outcome of that 
vote in the weeks leading up to or even probably the year or 2 
leading up to it at that point in time. They wanted it. They 
got it.
    Senator Young. In the months since the new Director General 
has taken the reins, have you seen anything in his leadership 
role that raises concerns for you or makes you question his 
support for the United Nations?
    Ambassador Tom. Yes, sir. Thank you for that question.
    We stay very close to the FAO organization. I stay very 
close to the Director General. We are working with the Director 
General to make sure that we get as many Amcits employed at the 
FAO to make sure we can help support and have impact. But we 
will hold him accountable like we would any other nation in 
that role, in that position. We will keep a watchful eye on to 
make sure that we drive outcomes.
    As I said, David Beasley at the World Food Programme can 
never raise enough money if we do not get the FAO right, and it 
has been broken for many decades.
    Senator Young. So, Ambassador Tom, I am going to have to 
follow up. I asked you if you had seen anything in his 
leadership that would raise concerns.
    Ambassador Tom. Not at this time.
    Senator Young. All right. You were just expressing your 
vigilance and professionalism, which I appreciate.
    According to the latest figures, Mr. Ambassador, the United 
States contributed $2.5 billion to the World Food Programme in 
2017. You indicated that if we do not get the FAO right, we can 
never put enough money into the World Food Programme.
    So with that in mind, given the significant amount of money 
that is funding the World Food Programme, what is your 
assessment of the value that the U.S. has received from that 
contribution?
    Ambassador Tom. Quite candidly, in the field you are seeing 
returns on investment. In Rome, Italy, maybe not so much. They 
have been working on policy that is very skewed. It is 
idealistic driven by a number of member states and NGOs running 
across Africa thinking the food systems that they support, 
which are food systems that my grandfather put to the side 50-
60 years ago. We will not feed this nation unless we bring some 
of the modern innovations in biotech to the place where farmers 
across the continent of Africa can use.
    Senator Young. So with an eye towards U.N. reform and 
accountability to U.S. taxpayers and other member countries, 
what recommendations might you have provided to the World Food 
Programme and other agencies to improve what you have seen thus 
far?
    Ambassador Tom. Absolutely. Thank you, Senator, for that 
question.
    I have worked tirelessly with Director Beasley, and we work 
together. He is very connected to a number of presidents and 
leaders around the world. And it is disheartening when we go 
places and we see countries that have the resources, the people 
can feed themselves, yet policy blocked by certain member 
nations has not allowed them to bring in some of the modern 
innovations that American farmers have at their access. They 
are available. They will make a difference, and we need to stop 
denying them the access because nothing good comes of it except 
for migration, human trafficking, and people involved in 
extremism. It is our own national security. It is a risk.
    So I encouraged Director Beasley to weave that into his 
conversation with presidents and leaders around the world that 
they need to have a policy framework to allow these modern 
innovations to come to their country.
    Senator Young. Thank you, Mr. Ambassador.
    And lastly, Mr. Busby, one question. We held a hearing, 
myself and Ranking Member Merkley, some time ago about the 
Human Rights Council. At the time, the United States had not 
withdrawn from the entity. There was I think among the expert 
witnesses, I believe there was uniform belief that for the time 
being we should uncomfortably stay in, but at some point pull 
out. We did at some point disengage.
    Now my question for you is, has our withdrawal in your 
assessment from the Human Rights Council reduced our 
effectiveness in promoting important values, human rights?
    Mr. Busby. Thank you for the question, Senator.
    As I tried to lay out in my testimony, despite our 
withdrawal from the Human Rights Council, we have sought to up 
our game on human rights in the wide array of fora and agencies 
that address the human rights issue, whether it is in New York 
at the Third Committee and the General Assembly, whether it is 
in the OSCE, the OAS, which has become a far more robust 
advocate for human rights. We have sought other ways of 
increasing U.S. attention to human rights and trying to move 
the needle on the ground.
    When it comes to the council itself, I should point out 
that we do remain engaged in the Universal Periodic Review, and 
we do that because every country in the world is reviewed 
there, including Israel and the United States. And we felt that 
that is a fair forum in which to make our concerns known.
    We also continue to engage with mechanisms of the Human 
Rights Council that we think are genuinely advancing human 
rights, whether it is special rapporteurs focused on particular 
countries or mechanisms focused on particular issues.
    Senator Young. Thank you, Mr. Busby.
    We are on schedule. In fact, we are a couple of minutes 
ahead of schedule, and I am comfortable with that.
    So I want to thank the members of our first panel for your 
testimonies and responses.
    For the information of members, the record will remain open 
until the close of business on Friday, including for members to 
submit questions for the record.
    Thank you again, gentlemen. This hearing will now adjourn 
for a few minutes to allow preparations for our second panel.
    [Pause.]
    Senator Young. This hearing will now reconvene. We will now 
be hearing testimony and responses from our second panel.
    First, we are joined by Mr. Brett Schaefer. Mr. Schaefer, 
currently serves as the Jay Kingham Fellow in International 
Regulatory Affairs at The Heritage Foundation. Mr. Schaefer, 
your full statement will be included in the record, without 
objection. So if you could please keep your remarks to no more 
than 5 minutes or so, we would appreciate it so that members of 
the committee can engage with you on their questions. You may 
proceed, sir.

      STATEMENT OF BRETT SCHAEFER, JAY KINGHAM FELLOW IN 
  INTERNATIONAL REGULATORY AFFAIRS, THE HERITAGE FOUNDATION, 
                         WASHINGTON, DC

    Mr. Schaefer. Chairman Young, Ranking Member Merkley, thank 
you for inviting me to testify today.
    My written testimony is too long to discuss fully, so I 
will only cover a few key points that I think are particularly 
relevant considering recent events.
    First, I want to point out that the U.S. is extraordinarily 
generously in funding international organizations. I raise this 
issue because some have criticized the U.S. for being ``a 
deadbeat'' or not honoring its obligations. To correct this 
mischaracterization, let me present a few key facts.
    The U.S. is currently a member of nearly 200 international 
organizations and contributes over $12 billion to those 
organizations, according to the most recent data. In most 
cases, the U.S. pays it assessment fully and on time and often 
provides voluntary contributions above its obligations. The 
vast majority of this U.S. funding goes to the United Nations, 
U.N. peacekeeping operations, and dozens of other entities 
affiliated with the organization--a total of over $10 billion a 
year.
    The U.S. has contributed, on average, nearly 19 percent of 
all U.N. system revenues since 2010. The second largest 
contributor has paid, on average, about 6 percent. China, which 
has garnered attention for its increased payments in recent 
years, contributed $1.4 billion to the U.N. system in 2018--
fifth overall. The U.S. paid over seven times that amount.
    Second, even taking U.S. withholding into account, the U.S. 
is by far the largest source of U.N. funding. Nevertheless, the 
U.S. does withhold funding at times. It does so because the 
U.S. Government has a higher obligation to the U.S. taxpayer 
than it does to the United Nations. Our government has a 
responsibility to make sure that taxpayer dollars are not 
misused or put to purposes that harm U.S. interests. Often this 
requires withholding because other member states do not share 
our concerns and pressure is necessary to spur changes. Why? In 
part because of the vastly different level of financial 
contributions among the member states. The U.N. assesses some 
countries less than $37,000 a year while the U.S. is charged 
over $2.4 billion. For the majority of U.N. member states, the 
financial impact of wasteful spending or budgetary increases is 
so minuscule that they have very little incentive or reason to 
fulfill an oversight role or to consider budgetary restraint. 
Unsurprisingly, in the vast majority of cases, U.S. withholding 
targets budgetary issues, mismanagement, and threats to the 
interests of the U.S. and our allies such as confronting anti-
Israel bias in the United Nations.
    American leadership can be decisive in improving the 
performance of international organizations and focusing them on 
their original missions and purposes, but if the U.S. is to 
succeed, it must not hesitate to use the tools available to it. 
This includes financial withholding to bolster efforts to 
reform those organizations and to advance U.S. interests.
    Third, some believe that membership in international 
organizations automatically conveys benefits to the United 
States. This is not true. Membership in international 
organizations is not an end in itself. It is a means for 
securing the safety, prosperity, and opportunities of the 
American people. Not all international organizations meet this 
standard. For instance, the Clinton administration withdrew 
from the World Tourism Organization and the U.N. Industrial 
Development Organization because they provided poor value for 
money and were unable to define their purpose or function to 
any real specific value.
    Just as the Clinton administration deserves recognition for 
looking out for the interests of the American people at that 
time, so should the Trump administration for its recent 
decisions to withdraw from UNESCO and the International Coffee 
Organization.
    Every administration should conduct a regular evaluation of 
the costs and benefits of membership and, in coordination with 
Congress, use the results of that analysis to shift funding to 
best support U.S. interests.
    In short, the U.S. should participate in international 
organizations where membership benefits U.S. interests, adjust 
its support when the costs outweigh the benefits, and always 
seek to improve performance, efficiency, and accountability.
    Finally, I want to conclude my remarks by briefly 
addressing Chinese influence in the United Nations system. This 
is an example of how the United States must routinely 
reevaluate its policy and approach to international 
organizations.
    Twenty years ago, China was not particularly active in the 
U.N. Today it is a major player. China is increasingly acting 
to protect itself and other repressive regimes, place its 
nationals in leadership positions, and modify U.N. resolutions 
and statements to reflect Chinese policies, values, and 
interests. This is concerning because China's policy priorities 
are in many areas antithetical to U.S. interests. As China 
becomes more economically and militarily powerful, its 
influence will grow. The U.S. cannot reverse that trend, which 
is based on political and financial realities. However, the 
U.S. must take steps to counter Chinese influence through 
aggressive diplomacy, strategic action, and applying financial 
incentives to advance U.S. interests in the U.N. and other 
international organizations.
    Thank you very much for inviting me to testify today, and I 
look forward to your questions. Thank you.
    [The prepared statement of Mr. Schaefer follows:]

                  Prepared Statement of Brett Schaefer

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    Senator Young. Thank you, Mr. Schaefer.
    We are also joined by Mr. Peter Yeo. Mr. Yeo serves as 
President of the Better World Campaign. Mr. Yeo, I apologize if 
I have mispronounced your name. I think I have correctly 
pronounced it. And you may proceed with your statement.

              STATEMENT OF PETER YEO, PRESIDENT, 
             BETTER WORLD CAMPAIGN, WASHINGTON, DC

    Mr. Yeo. You got it right. Thank you.
    Chairman Young, Ranking Member Merkley, thank you for the 
opportunity to explain how the United Nations furthers the 
values and the priorities of the United States.
    Over the past decade, I have been fortunate to see the 
lifesaving work of the United Nations in more than 2 dozen 
countries around the world, many emerging from conflict and 
disaster. Last November, I traveled to Mali where U.N. 
peacekeepers opposed no less than six terrorist organizations, 
offshoots of ISIS and al-Qaeda, each fighting for territory and 
the overthrow of a democratically elected government in a 
strategic area for us.
    In Jordan, the United Nations Refugee Agency provides 
shelter for more than a half million Syrian refugees, while the 
U.N. Population Fund, working in the largest refugee camp, has 
safely delivered more than 10,000 babies with zero maternal 
mortality.
    In Mexico, the U.N. Office on Drugs and Crime helps fight 
against opioids by tracking illicit crop production, working 
with the Mexican army to locate and destroy nearly 200,000 
plots of poppies in 2017.
    In Yemen, one of the world's worst humanitarian disasters, 
the World Food Programme feeds 12 million people per month, 
while UNICEF and the World Health Organization are responding 
to a massive cholera outbreak.
    Now, the member states of the U.N. finance these many 
operations through both assessed and voluntary contributions. 
While the U.S. is the largest single financial contributor to 
the U.N. system, the current model is ultimately beneficial to 
the United States, as it requires all U.N. member states, no 
matter how big or small, how rich or poor, to help shoulder the 
burden of the U.N.'s regular and peacekeeping budgets. Some 
have suggested that moving to an entirely voluntary funding 
model would lead to more accountability and cost effectiveness. 
It will not. It is more likely to increase the amount of money 
spent by the U.S. taxpayers as they are saddled with more 
expenses. Let me explain.
    Our country, under Democratic and Republican 
administrations alike, has a very broad definition of its 
foreign policy and national security interests. That is why we 
support peacekeepers in Mali and the U.N.'s negotiators in 
Yemen. It is also why we support investigating the human rights 
situation in North Korea and support programs that stop the 
flow of opioids into our country. All of these efforts are 
funded by assessed contributions to the U.N. Few U.N. member 
states, including Russia and China, share this expansive view 
of national interests and would not shoulder the burden 
voluntarily.
    Now, as it stands, though, we are one of the few member 
states not fully paying our assessed contributions for either 
the U.N. regular budget or peacekeeping. These shortfalls have 
contributed to what the Secretary-General has deemed a 
financial crisis at the U.N. Right now on peacekeeping alone, 
we are $776 million in arrears, a shortfall that the Senate 
Appropriations Committee stated last year damages U.S. 
credibility and negatively impacts U.N. peacekeeping missions.
    At the same time that the U.S. is underfunding operations, 
the stock of our rivals, particularly China, is rising at the 
U.N., as has been discussed extensively. China is now the 
second largest financial contributor to U.N. peacekeeping, its 
assessment rate having risen to 15 percent this year from just 
3 percent 10 years ago.
    So in the U.N. context, increased Chinese support for the 
U.N. has boosted Chinese influence, as it would in any large 
organization with dues-paying shareholders. While the U.S. has 
withdrawn from several key U.N. bodies, China has increased its 
leadership and now holds the top jobs in four of the U.N.'s 15 
specialized agencies. The Chinese Government also become 
increasingly assertive at promoting its vision of human rights, 
which of course values the state over the rights of the 
individual, in bodies like the Human Rights Council, in which 
we no longer participate. China is seeking to use the U.N. to 
promote the Belt and Road Initiative involving infrastructure 
investments in more than 60 countries.
    The right response to the rise of China in the U.N. is 
clear.
    First, the U.S. should boost our level of involvement in 
U.N. agencies. Sadly the State Department office that pushes 
U.S. participation in international organizations was cut from 
five staff to zero.
    Second, we should engage in the U.N. system rather than 
withdraw from it when the U.S. does not achieve all of its 
negotiating objectives, a position backed by nearly 60 percent 
of Americans in polling last summer.
    Third, the U.S. should pay its dues on time and in full. 
China has paid its regular and peacekeeping dues. The U.S., 
meanwhile, is set to be a billion dollars in arrears by next 
year unless Congress acts. As the State Department stated in a 
report to Congress this summer, such shortfalls resulted in 
diminished U.S. standing and the ability to pursue U.S. 
priorities. Simply put, the other 192 U.N. member states are 
more likely to vote with the U.S., support its candidates for 
key U.N. positions, and quietly push against Chinese 
initiatives if the U.S. is seen as being a fully engaged and 
supportive player.
    This is the time to work cooperatively with the U.N. and 
other likeminded U.N. member states to focus on implementation 
of the Secretary-General's ambitious reform agenda, which has 
been approved with active Trump administration support. And 
this also means American leadership to ensure that the U.N. 
remains as much in America's image as it did when we crafted 
the U.N. Charter with our allies nearly 75 years ago.
    Thank you, Mr. Chairman. And I look forward to your 
questions.
    [The prepared statement of Mr. Yeo follows:]

                    Prepared Statement of Peter Yeo

    Chairman Young, Ranking Member Merkley, thank you for the 
opportunity to testify before the Subcommittee today about an issue of 
great importance to U.S. foreign policy: the effectiveness of the 
United Nations and the state of U.S.-U.N. relations. I'm Peter Yeo, 
President of the Better World Campaign, a Washington, DC-based 
organization whose mission is to support a strong and constructive 
U.S.-U.N. relationship by educating American policymakers and members 
of the public alike about the importance of the U.N.'s work and how it 
advances U.S. interests.
    2020 marks the 75th anniversary of the San Francisco Conference and 
the entry into force of the U.N. Charter, the treaty that gave birth to 
the United Nations. Over the past three-quarters of a century, the U.N. 
has been one of the bedrock international institutions of the post-
World War II international order. Established in the wake of that 
devastating conflict at the initiative of the United States and its 
Allies, the organization was conceived in order to ``save humanity from 
the scourge of war'' and provide a framework for international 
cooperation on efforts to address challenges in the security, 
humanitarian, development, economic, and human rights spheres.
    I have seen first-hand what this ideal means in practice. Over the 
past decade, I've been fortunate to see the life-saving work of the 
U.N. up close in more than two dozen field presences:

   Last November, I traveled to Mali, a country twice the size of 
        Texas, where U.N. Peacekeepers are opposing no less than six 
        terrorist groups--offshoots of ISIS and al-Qaeda--each vying 
        for territory and the overthrow of a democratically elected 
        government in a strategic region;

   In Jordan, the U.N. Refugee Agency provides shelter for more than a 
        half-million Syrian refugees, while the U.N. Population Fund, 
        working in the largest refugee camp there, has safely delivered 
        more than 10,000 babies with zero maternal mortality;

   In Mexico, the U.N. Office on Drugs and Crime (UNODC) has helped in 
        the fight against opioids and the increase in heroin coming 
        from the country over the border. Through a UNODC initiative, 
        they are using satellite imagery and aerial photographs to 
        depict where illicit crops are grown and then sharing that 
        information with the Mexican government. This information in 
        turn helped the Mexican army destroy nearly 200,000 plots of 
        poppy in 2017, up 22 percent from the previous year.

   In Yemen, one of the world's worst humanitarian disasters, the 
        World Food Program is feeding 12 million people per month, 
        while UNICEF and the World Health Organization are operating 
        treatment facilities and vaccinating the population in response 
        to a massive cholera epidemic.

    But the U.N. has a broader reach than these global hot spots. The 
U.N. Security Council--despite the inability of its members to reach 
consensus on some foreign policy issues--is the preferred vehicle to 
impose global sanctions, which it has done in a comprehensive way 
against North Korea. And as you know from your meetings with your local 
Rotary Club, the U.N. vaccinates more than 45 percent of the world's 
children and helps more than 2 million women per month overcome 
pregnancy-related risks and complications.
    The member states of the U.N. finance many of these operations 
through ``assessed'' contributions--a percentage of money owed the U.N. 
based on a country's gross national income and other factors--as well 
as voluntary contributions. While the U.S. is the largest single 
financial contributor to the U.N. system, the current model is 
beneficial to the U.S. because it requires all U.N. member states, no 
matter how big or small, rich or poor, to help shoulder the U.N.'s 
regular and peacekeeping budgets at specified levels. Some have 
suggested that moving to an entirely voluntary funding model would lead 
to more accountability and cost effectiveness. It won't. It's more 
likely to increase the amount of money spent by U.S. taxpayers as 
they'll be saddled with more expenses.
    Our country--under Democratic and Republican administrations 
alike--has a broad definition of its foreign policy and national 
security interests. That's why we support peacekeepers in Mali, and the 
U.N.'s negotiators in Yemen. It's also why we believe in investigating 
human rights violations in North Korea and supporting U.N. programs 
that stop the flow of opioids into the U.S. All of these efforts are 
funded by our ``assessed'' contributions to the U.N. Few U.N. member 
states--including Russia and China--share this expansive view of 
national interests and would not shoulder the burden.
    As it stands though, we are one of the few member states not fully 
paying our assessed contributions for either the regular budget or 
peacekeeping. These shortfalls have contributed to what the Secretary-
General has deemed a ``financial crisis'' at the U.N. Right now, on 
peacekeeping alone, we are $776 million in arrears; a shortfall that 
the Senate Appropriations Committee stated last year ``damages U.S. 
credibility and negatively impacts U.N. peacekeeping missions.''
    At the same time that the U.S. is underfunding these operations, 
the stock of our rivals--particularly China--is rising at the U.N. 
China is now the second largest financial contributor to U.N. 
peacekeeping; its assessment rate having increased to 15 percent this 
year from just over 3 percent 10 years ago. It is also one of the 
largest troop contributors to U.N. peacekeeping operations, providing 
more uniformed personnel than the rest of the permanent members of the 
Security Council combined.
    In the U.N. context, increased Chinese support for the U.N. has 
boosted Chinese influence--similar to any large organization with dues-
paying shareholders. But that influence brings challenges that the 
U.S.--due to its accrual of debt on its financial obligations and 
withdrawal from key U.N. bodies--may be unable to adequately address.
    It is our view that by working through the U.N. system, the U.S. 
helps share the burden for tackling a range of issues, harnessing the 
resources and political will of most of the world to achieve common 
diplomatic objectives, while also allowing us to marshal coalitions 
against those who have objectives that stand in stark contrast to our 
own. I will provide more detail on how specific aspects of the U.S.-
U.N. relationship advance U.S. interests, as well as some of the 
challenges currently facing U.S. engagement with the U.N., below.
                        peacekeeping operations
    U.N. peacekeeping operations are among the most visible, impactful, 
and complex activities undertaken by the U.N. in the field. Multiple 
academic studies have confirmed that peacekeeping is an effective tool 
for saving lives and ending wars. One new book, which analyzes more 
than two dozen different statistical studies of peacekeeping, states 
that, ``The vast majority of quantitative studies of peacekeeping come 
to a similar conclusion: U.N. peacekeeping is effective. Using 
different data sets, leveraging different time periods and controlling 
for everything one can imagine, the most rigorous empirical studies 
have all found that peacekeeping has a large, positive, and 
statistically significant effect on containing the spread of civil war, 
increasing the success of negotiated settlements to civil wars, and 
increasing the duration of peace once a civil war has ended. In short, 
peacekeepers save lives, and they keep the peace.'' \1\
    In addition, a 2013 study by Swedish and American researchers found 
that deploying large numbers of U.N. peacekeepers ``significantly 
decreases violence against civilians.'' Their findings were striking: 
in instances where no peacekeeping troops were deployed, monthly 
civilian deaths averaged 106. In instances where at least 8,000 U.N. 
troops were present, by contrast, the average civilian death toll fell 
to less than two. The paper concluded that ensuring U.N. peacekeeping 
forces ``are appropriately tasked and deployed in large numbers'' is 
critical to their ability to protect civilians.\2\
    What is also remarkable is that all of this lifesaving work is 
being done at such a relatively low financial cost. Currently, there 
are more than 100,000 peacekeepers--soldiers, police, and civilians--
deployed to 13 missions around the world, making U.N. peacekeeping the 
second-largest military force deployed abroad (after the U.S.). And 
yet, the total budget for the U.N.'s peacekeeping activities this year 
is just $6.5 billion, less than 1 percent of what the U.S. spent on its 
own military in FY'19. Moreover, a 2018 report by the U.S. Government 
Accountability Office (GAO) found that deploying U.N. peacekeepers is 
eight times cheaper than U.S. forces.\3\ It's hard to think of many 
other programs where the cost-benefit ratio is that favorable.
    Right now, peacekeepers are playing a critical role promoting 
stability in a number of contexts, including Mali in the restive Sahel 
region of West Africa, where extremist groups linked to al-Qaeda and 
the Islamic State have proliferated in recent years. Since the 
peacekeeping mission began, the peacekeepers have facilitated free and 
fair presidential and parliamentary elections, helping the country 
return to democracy after a 2012 military coup. They have also overseen 
a shaky peace agreement between the government and Tuareg separatists 
in the north, and--most importantly--kept the extremists at bay, 
preventing them from reasserting control over northern population 
centers like Timbuktu, Gao, and Kidal.
    Peacekeeping in Mali is not a panacea. But things would arguably be 
much worse if blue helmets weren't on the ground working to promote 
security and stability. Indeed, the last thing that the region needs is 
a proto-state run by jihadists emerging in that country. The U.N., by 
virtue of its presence and its activities in the country, is preventing 
that from happening, at a significant cost--dozens of peacekeepers have 
been killed in Mali since the mission began 6 years ago.
    Peacekeepers are working to promote stability and civilian 
protection in a number of other theaters of operation as well. In South 
Sudan, for example, which was plunged into a devastating civil war in 
2013, peacekeepers have been protecting more than 200,000 civilians who 
fled their homes and sought shelter at U.N. bases. Given the 
exceptionally brutal nature of the violence in South Sudan and the fact 
that civilians have been targeted on the basis of their ethnicity, it 
is likely many of these people would have been killed had the U.N. not 
intervened to protect them. Further south, peacekeepers are also 
playing a critical role in eastern Congo, a region that has been 
ravaged by several decades of conflict and is currently experiencing 
the second worst Ebola outbreak in history. In addition to their normal 
stabilization activities, peacekeepers have stepped in to provide 
protection to health care workers and treatment centers, which have 
been targeted in attacks by armed groups, as well as provided 
logistical and operational support to Ebola response efforts. The U.S., 
for its part, has endorsed the efforts of both missions, by continuing 
to support the reauthorization of their mandates on the Security 
Council.
                providing lifesaving humanitarian relief
    The U.N.'s work in the field extends far beyond peacekeeping 
missions though. Every year, U.N. humanitarian agencies provide 
lifesaving aid to tens of millions of people around the world who have 
been driven from their homes or had their lives turned upside-down by 
conflict, famine, and other calamities. These activities have long 
enjoyed bipartisan support on Capitol Hill, and for good reason: the 
provision of food, shelter, medical care, education, and protection to 
people in need reflect our deepest values as a nation. Moreover, there 
is an important national security imperative to this type of work, as 
the desperation caused by humanitarian crises can provide openings for 
extremists and other bad actors to exploit.
    Currently, one of the U.N.'s largest humanitarian responses is to 
the civil war in Syria, which over the last 8 1/2 years has claimed 
hundreds of thousands of lives and displaced millions. While the U.N. 
Security Council--largely because of Russia's willingness to deploy its 
veto in support of the brutal dictatorship of Bashar al-Assad--has 
mostly been sidelined from dealing with the conflict, particularly on 
the issue of chemical weapons, U.N. agencies are on the ground working 
to save lives and provide a measure of hope in the bleakest of 
circumstances.
    The World Food Program, for example--led by former South Carolina 
Governor David Beasley--distributes food aid to several million 
displaced civilians inside Syria every month, and provides electronic 
vouchers that allow more than 1.5 million Syrian refugees to purchase 
food in local markets, providing a much-needed cash infusion for host 
communities in Turkey, Jordan, Lebanon, and Iraq. Overall, WFP is the 
world's largest humanitarian organization addressing hunger and 
promoting food security; it provides food assistance to an average of 
91 million people in 83 countries each year. Around the world on any 
given day, WFP has 5,000 trucks, 92 aircraft, and 20 ships on the move. 
It is a humanitarian logistics operation of unrivaled proportion.
    The U.N. Children's Fund does equally vital work in size and scale. 
As noted, the agency supplies vaccines reaching 45 percent of the 
world's children under the age of 5 as part of its commitment to 
improving child survival. Immunization is one of the most successful 
and cost-effective public health interventions, saving an estimated 2 
to 3 million lives every year. In Syria, UNICEF is working to help 
children gain access to vaccines, as well as clean water, hygiene and 
sanitation services, and education. In addition, the U.N. Refugee 
Agency (UNHCR) is a provider of shelter for Syrian refugees and works 
to find durable solutions to their plight, including through 
resettlement in third countries. And the U.N. Population Fund (UNFPA), 
a critical provider of sexual and reproductive health care in emergency 
situations, operates a maternal health clinic in Za'atari--Jordan's 
largest Syrian refugee camp--that has safely delivered more than 10,000 
babies with zero maternal mortality, a huge feat given that 60 percent 
of all maternal deaths occur in the context of humanitarian 
emergencies.
    The lifesaving work of the U.N. is also in full force in Yemen, 
which is currently facing the world's worst humanitarian crisis, with 
more than 80 percent of the population reliant on some form of aid. 
Here, WFP is working to reach 12 million people per month with food and 
nutritional assistance; UNICEF and the World Health Organization (WHO) 
did critical work responding to a massive cholera epidemic, operating 
treatment facilities and vaccinating people across the country; and 
UNFPA has integrated nutrition assistance for pregnant women into its 
reproductive health and safe delivery services in the country. These 
activities have undoubtedly saved many thousands of lives, even as the 
country's brutal civil war continues to grind on.
    But the U.N.'s work in Yemen is not merely confined to addressing 
the humanitarian consequences of the conflict. The U.N. is also deeply 
involved--through the Secretary-General's Special Envoy for Yemen 
Martin Griffiths--in efforts to navigate a negotiated, political 
solution to what has become a complex and multi-faceted conflict 
involving an array of local interests and factions, with the 
increasingly intense rivalry between Gulf Arab monarchies in the region 
and Iran layered on top. The U.N. was instrumental in brokering talks 
that took place in Sweden in December of last year between the Houthis 
and the Yemeni government, the first time the two sides had met face-
to-face in nearly 2 1/2 years. While relatively modest in scope, the 
agreement they reached on a ceasefire and military redeployment from 
Hodeidah and several other key ports could--if fully implemented--
contribute much to alleviating the suffering of the Yemeni people and 
set the stage for further diplomatic efforts to peacefully end the 
conflict. In a recent op-ed published in The Washington Post, 
Ambassador William J. Burns, a former U.S. diplomat and current 
President of the Carnegie Endowment for International Peace, endorsed 
the U.N.'s efforts, recommending that the Trump administration ``throw 
our full support behind'' the U.N.-led framework for peace talks 
between the parties.
                  promoting and advancing human rights
    The U.N.'s work on conflict mitigation dovetails with another key 
pillar of the organization: the promotion and protection of universal 
human rights. This has been baked into the U.N.'s ethos from the very 
beginning: Article I of the Charter establishes one of the U.N.'s core 
purposes as ``promoting and encouraging respect for human rights and 
for fundamental freedoms for all without distinction as to race, sex, 
language, or religion.'' These principles were further elaborated in 
the Universal Declaration of Human Rights (UDHR), adopted by the U.N. 
General Assembly in 1948. This seminal document, which Eleanor 
Roosevelt played a key role in crafting, lays out a litany of basic 
human rights standards to which all human beings are entitled, 
including the right to life, liberty, and security of person and the 
right to freedom of thought, association, expression, and religion.
    Seventy-one years later, the U.N. works to advance human rights 
through a number of tools, mechanisms, institutions, and partnerships, 
including perhaps most prominently the Office of the U.N. High 
Commissioner for Human Rights (OHCHR). Established in 1993 with U.S. 
backing, this office conducts fact-finding missions and provides 
support to independent investigative mechanisms established by the U.N. 
Human Rights Council (UNHRC) that probe serious violations in specific 
countries. These activities help raise public awareness of human rights 
violations, magnify the voices of dissidents and civil society 
organizations on the ground, and provide a tool for pressuring 
repressive governments and holding abusers accountable. The Office also 
has a Rapid Response Unit which can swiftly deploy to the field in 
human rights emergencies. This mechanism has recently supported fact-
finding missions for DR Congo, Myanmar, Nicaragua, North Korea, Syria, 
Bangladesh, Central African Republic, Sri Lanka, and Venezuela, among 
other countries.
    Another key component of the U.N. human rights system are the more 
than 50 special procedures-- independent experts who do not receive a 
salary and serve in their personal capacity--who work to promote human 
rights around the world. Existing special procedures include mandates 
for country-specific human rights monitoring, as well as the special 
rapporteurs focused on thematic human rights issues, such as freedom of 
peaceful assembly and of association; freedom of religion and belief; 
freedom of expression; and combatting human trafficking. Once referred 
to by the late former U.N. Secretary-General Kofi Annan as the ``crown 
jewel'' of the U.N. human rights system, these independent experts 
regularly speak truth to power, calling out governments by name for 
violating international human rights standards, and supporting the work 
of local advocates on the ground. In June, for example, Agnes 
Callamard, the U.N. special rapporteur on extrajudicial, summary, or 
arbitrary executions, released a report on the murder of Saudi 
journalist Jamal Khashoggi, which found evidence suggesting 
premeditation for the killing at the highest levels of the Saudi 
government. This report was an important touchstone in efforts by a 
number of parties--including this body--to hold the Saudi government to 
account for Mr. Khashoggi's brutal slaying.
    Unfortunately, the U.N.'s human rights advocacy has at times been a 
source of controversy and tension in the U.S.-U.N. relationship. In 
recent years, there has been understandable concern in Congress about 
the activities and composition of the U.N. Human Rights Council 
(UNHRC), a body made up of 47 member states (elected to 3-year terms by 
the General Assembly) that seeks to advance international human rights 
standards.
    To be clear, I'm not here to defend the UNHRC's disproportionate 
focus on Israel, or the human rights records of some of its member 
states. Those are valid criticisms, and areas where there is bipartisan 
agreement on the need for improvement. What I think is clear though is 
that when the U.S. reversed course and decided to engage actively with 
the Council from 2010-2017, the record of the Council improved 
markedly, in ways that benefited and advanced U.S. interests and core 
values. With strong U.S. diplomatic engagement, the Council:

   Established a Commission of Inquiry (COI) to investigate human 
        rights violations in North Korea. As a result of a landmark 
        report drafted by the Commission, the Office of the U.N. High 
        Commissioner for Human Rights established a field office in 
        Seoul, South Korea to continue to track rights violations in 
        North Korea;

   Created a COI on the human rights situation in Syria, which has 
        helped gather evidence against specific individuals in the 
        Assad regime for their involvement in crimes against humanity, 
        and created a ``perpetrators list'' to be shared with 
        international judicial bodies;

   Established a special rapporteur to investigate human rights 
        violations in Iran, which has issued strong denunciations of 
        Iranian government policy on a number of issues, including 
        arbitrary arrests, executions, persecution of religious 
        minorities, and efforts to curb press freedom;

   Passed three historic resolutions on combatting discrimination and 
        violence based on sexual orientation and gender identity in 
        2011, 2014, and 2016. The most recent resolution established an 
        independent expert focused on combating violence and 
        discrimination based on sexual orientation and gender identity, 
        which allows for unprecedented global-level reporting on 
        international human rights challenges facing LGBTI individuals.

    In addition, during the period when the U.S. was a member of the 
Council, we saw positive movement on Israel's treatment as well. Just 
to provide some additional context, the UNHRC was created in 2006 to 
replace a previous U.N. human rights body. During its first several 
years, the U.S. refused to run for a seat on the new Council, fearing 
it would be no better than its predecessor. In fact, it was during this 
period when the U.S. refused to participate that the Council voted to 
place ``the human rights situation in Palestine and other occupied Arab 
territories'' on its permanent agenda (known as ``Item 7'').
    The Council's record began to shift in 2009, when the U.S.'s 
posture towards the Council changed and the U.S. won its first term. 
While Item 7 remains in place, there have been noteworthy improvements 
in other areas. According to the American Jewish Committee's Jacob 
Blaustein Institute for the Advancement of Human Rights, there was a 30 
percent decrease in the proportion of country-specific resolutions 
focused on Israel during U.S. membership on the Council versus the 
period when we were off. In March 2018, the State Department itself 
reported that the Council saw ``the largest shift in votes towards more 
abstentions and no votes on Israel-related resolutions since the 
creation of the [Council].''
    In 2018 though, the Trump administration decided to walk away from 
the U.S. seat on the Council, as it could not convince others about the 
proposed U.S. reform agenda. It was a decision welcomed by nations, 
like China, that do not share our views on human rights.
    In addition to our decision to leave the Council, since Fiscal Year 
2018, the State Department has withheld a portion of our Regular Budget 
dues directed towards the Office of the High Commissioner for Human 
Rights (OHCHR). While amounting to about $19 million each year, this 
money nevertheless has an impact: earlier this year, OHCHR was almost 
forced to suspend the activities of a number of human rights treaty 
monitoring bodies--including those overseeing member state compliance 
with the Convention Against Torture and the International Covenant on 
Civil and Political Rights--due to funding shortfalls caused in part by 
the U.S. withholding. Ironically enough, the U.S. is a party to both of 
these treaties. Plus, for the first time in nearly a quarter century, 
beginning in 2020, no American will have a seat on any U.N. human 
rights treaty body, which weakens our ability to influence 
international law and fundamental freedoms at the global level. It also 
provides an opening to other member states, particularly China, who are 
working to increase their own profile at the U.N. and use it to weaken 
the organization's human rights pillar.
 the challenge of a rising china and u.s. retreat from multilateralism
    In addition to key human rights bodies, other parts of the U.N. 
system are witnessing a U.S. retreat from the basic tenets of 
multilateralism as well. With regards to peacekeeping operations, the 
U.S. is currently in debt on its peacekeeping assessments--by $776 
million--because of Congress's decision to reimpose a 1990s-era cap on 
U.S. contributions. In part because of these underpayments, the U.N. is 
facing a major cash shortfall, which has serious consequences. The 
State Department itself has weighed in on this issue, outlining--in a 
report to Congress this past June--the following impacts of growing 
U.S. arrears to the U.N.: ``(1) Loss of vote or inability to be a 
member of governing bodies; (2) Diminished U.S. standing and diminished 
ability to pursue U.S. priorities; (3) Reduced U.S. ability to promote 
increased oversight and accountability through reforms that promote 
efficiency, cost savings, and improved management practices; (4) 
Reduced standing needed to successfully promote qualified U.S. citizens 
to assume senior management roles; and (5) Impairments of peacekeeping 
missions to operate, including addressing objectives that may directly 
impact the national security of the United States.''
    With respect to peacekeeping, this also means that troop-
contributing countries are not being fully reimbursed for their 
contributions of personnel and equipment, to the tune of tens of 
millions of dollars. This can create significant challenges for troop-
contributors, most of whom are lower-income countries that rely on 
reimbursements to help sustain complex longer-term peacekeeping 
deployments. For example, last year, Rwanda--a major provider of troops 
to U.N. operations in sub-Saharan Africa--reportedly had to withdraw a 
planned rotation of one of its troop contingents to the Central African 
Republic because it had not received reimbursements sufficient to make 
necessary updates to military equipment. If the U.S. keeps accruing 
arrears, these cash flow challenges will only grow, potentially denying 
peacekeepers the resources necessary to project force and conduct 
patrols, discouraging countries from providing troops and equipment in 
the first place, and threatening the long-term sustainability of U.N. 
peacekeeping as a whole.
    The knock-on effects of these policies are not solely confined to 
the effectiveness of the programs in question, however. At the same 
time that the U.S. is underfunding peacekeeping mandates that it votes 
in favor of on the Security Council, withdrawing from the Human Rights 
Council, withholding funding for OHCHR, and abrogating its 
participation in other U.N. institutions and initiatives, including the 
Paris Climate Agreement, other countries--particularly China--are 
taking a far more active role. As noted, China is now the second 
largest financial contributor and one of the largest troop contributors 
to U.N. peacekeeping operations. It has also aggressively pushed to 
expand its role in a range of U.N.-affiliated institutions, and Chinese 
nationals currently holding the top job in four of the organization's 
15 specialized agencies: the International Civil Aviation Organization 
(ICAO), the Food and Agriculture Organization (FAO), the International 
Telecommunication Union (ITU), and the U.N. Industrial Development 
Organization (UNIDO).
    While greater Chinese participation at the U.N., and a greater 
share of the financial burden for its costs, are not necessarily 
negative outcomes in their own right, the way China has sought to use 
its growing clout is far from benign, particularly in terms of the 
organization's work on human rights. According to a recent report by 
the Center for a New American Security, the Chinese government has 
become increasingly aggressive in recent years in seeking to promote a 
particularist view of human rights at the U.N.--one which devalues 
minority rights, elevates a narrow conception of ``state sovereignty'' 
over the rights of the individual, gives primacy to economic and social 
rights over civil and political rights, and seeks to mute criticism of 
individual countries' human rights records, particularly its own.\4\ 
Naturally, the Human Rights Council has been ground zero for many of 
these efforts. In 2017 and 2018, for example, China tabled its first-
ever resolutions before the Council, on ``The contribution of 
development to the enjoyment of all human rights'' and ``Promoting 
mutually beneficial cooperation in the field of human rights.'' While 
seemingly innocuous on the surface, both proposals encapsulate 
Beijing's hostility to universal human rights norms. According to a 
September 2018 report by Ted Piccone, formerly of the Brookings 
Institution, an expert on the U.N. human rights system, ``Both 
resolutions emphasized national sovereignty, called for quiet dialogue 
and cooperation rather than investigations and international calls to 
action, and pushed the Chinese model of state-led development as the 
path to improving their vision of collective human rights and social 
stability. They also represent an important changing of tides toward a 
Council where China is both an active participant and a key influencer 
of other countries' votes, at a time when its chief protagonist, the 
United States, has absented itself from the field.'' \5\ Given our 
absence from the Council, these efforts are likely to only accelerate.
    China's efforts on this front extend beyond the UNHRC, however. In 
June 2018, during negotiations at the U.N. on the 2018-2019 
peacekeeping budget, China pushed for the elimination of a number of 
important human rights monitoring and civilian protection posts in U.N. 
peacekeeping missions. While ultimately unsuccessful, the fact this was 
even tried in the first place is evidence of an emboldened China that 
is increasingly willing to use its influence--particularly, in this 
case, its large financial contribution to U.N. peacekeeping--to tilt 
the field in order to achieve the policy outcomes it desires. Of note, 
China's efforts in this case were premised on the budgetary limitations 
caused by the U.S. focus on funding cuts.
    U.S. policy has unwittingly aided and abetted China's rise in other 
ways as well. As previously noted, a central pillar of China's strategy 
is filling senior posts with Chinese nationals in order to extend and 
solidify its influence throughout the U.N. system. Unfortunately, this 
is happening at a time when the State Department, and especially the 
Bureau of International Organization Affairs, has been hollowed out, 
thereby limiting our ability to push back against China's efforts or 
support our own preferred candidates for these positions. For example, 
there has long been a unit within the Bureau responsible for helping to 
promote jobs for Americans in international organizations. According to 
Foreign Policy, that office has shrunk from five employees to zero, 
putting the U.S. at a severe disadvantage in the competition over 
coveted posts in the U.N. system.\6\
    Beyond these examples, China has also sought to use the U.N. system 
to promote Xi Jinping's signature foreign policy effort--the Belt and 
Road Initiative--which carries a host of unique strategic, human 
rights, and environmental challenges; sought to deny U.N. accreditation 
to civil society organizations critical of Chinese policies; and, 
through the ITU, support its ``Digital Silk Road'' initiative, which 
according to a recent piece by the Council on Foreign Relations, ``has 
the capacity to spread authoritarianism, curtail democracy, and curb 
fundamental human rights.'' \7\
    If the U.S. continues to draw down its engagement with the U.N.--by 
withdrawing from key U.N. bodies, unilaterally cutting funding to core 
U.N. programs and agencies, or abrogating its obligations under 
multilateral treaties or agreements--it will leave a void that 
countries like China have shown they are more than willing, and 
increasingly able, to fill. That could mean a very different U.N. than 
the one the U.S. sought to create in the aftermath of World War II--one 
where U.S. national security interests and foreign policy objectives, 
as well as our longstanding commitment to advancing universal human 
rights, are increasingly sidelined. Preventing such a scenario requires 
more engagement, not less, and that means, in part, honoring our 
financial obligations to the organization, which account for a tiny 
fraction of the federal budget.
                        reform & the way forward
    Before I wrap up my testimony, I would like to say a few words 
about the issue of reform. In recent years, the U.N. has undertaken a 
number of measures to make its operations more transparent and 
efficient. With regards to peacekeeping, for example, earlier in the 
decade the U.N. initiated efforts that reduced the cost per peacekeeper 
by 18 percent and cut the number of support staff on peacekeeping 
missions by 4,000 to save on administrative costs, even while the 
number of uniformed personnel deployed to the field, and the complexity 
of the activities they were expected to undertake, increased. The U.N. 
also undertook important efforts to combat sexual exploitation and 
abuse by U.N. personnel, including an unprecedented policy calling for 
the repatriation of entire units whose members engaged in widespread 
instances of abuse. More recently, under the leadership of current U.N. 
Secretary-General Antonio Guterres, the U.N. has made significant 
progress on achieving gender parity in its senior leadership, 
promulgated stronger whistleblower protections, and sought to 
strengthen the role of Resident Coordinators--officials responsible for 
heading up the U.N.'s development work on the ground--in order to make 
the U.N.'s delivery of development assistance more streamlined and 
accountable. In a Wall Street Journal op-ed, the Secretary-General was 
praised for taking the lead against anti-Semitism.\8\ As with so many 
other things at the U.N., the achievement of these reforms would not 
have been possible without strong U.S. support and engagement, and 
while there remains much work to be done on a range of reform-related 
issues, it's clear that the organization is moving in the right 
direction. Put simply, the U.N. of today is a world away from the U.N. 
of nearly 75 years ago.
    Nevertheless, that has not stopped some in Washington from 
advancing certain theories for spurring further progress on reform 
that, while perhaps well-intentioned, would cripple the organization 
and nullify our efforts to achieve meaningful and realistic reforms. 
One such proposal would have the U.N. move from a funding structure 
that relies on both mandatory assessments and voluntary contributions 
from member states to an entirely voluntary financing scheme. This 
approach is problematic for a number of reasons:

   The fact that assessed funding structures require other countries 
        to share in the financial burden is actually beneficial to the 
        United States. All U.N. member states are required to help 
        shoulder the U.N.'s regular and peacekeeping budgets at 
        specified levels. This, in turn, prevents U.S. taxpayers from 
        being saddled with the majority of these expenses. By contrast, 
        the U.S. often pays more under voluntary funding arrangements.

   Successive administrations and outside experts have recognized the 
        limitations inherent in voluntary funding structures.

     In June 2005, the House passed The United Nations Reform Act of 
            2005 which would automatically withhold dues from the U.N. 
            unless certain specific reforms are met, including 
            switching to a voluntary system. The Bush administration 
            issued a Statement of Administration Policy (SAP) which 
            said that it has ``serious concerns'' about the legislation 
            because it ``could detract from and undermine our 
            efforts,'' and ``asks that Congress reconsider this 
            legislation.'' Secretary of State Condoleezza Rice has 
            stated that ``the administration doesn't support those 
            bills.''

     The 2005 Congressionally-mandated Newt Gingrich-George Mitchell 
            report on U.N. reform, for example, noted that such schemes 
            are often slow and lead to U.S. priorities being 
            underfunded.

    While the U.S. must continue to push hard for progress on reform at 
the U.N., it is critical that Congress avoid proposals that will 
substantially underfund key U.N. activities that are critical to U.S. 
interests, and could lead to U.S. taxpayers footing a higher proportion 
of the bill for certain activities.
    The U.S.-U.N. relationship has gone through its share of ups and 
downs over the years. But one constant has been the importance of 
positive U.S. leadership, and its capacity to steer the organization in 
a way that both advances U.S. national interests and helps the U.N. 
live up to the ideals upon which it was founded. Now is no different: 
this is the time to work cooperatively with U.N. leaders and like-
minded U.N. member states to focus on implementation of the Secretary-
General's ambitious reform agenda, which has been approved with active 
U.S. support. It is also the time to ensure that America's voice and 
presence continues to be heard in New York. Without our steadfast 
diplomatic engagement and financial support, it is difficult to see how 
the U.N. will be able to continue all of the important responsibilities 
it was first invested with nearly 75 years ago.
    Thank you again for the opportunity to testify about U.N. 
effectiveness and the importance of a strong U.S.-U.N. relationship.

----------------
Notes

    \1\ Howard, Lise. ``Power in Peacekeeping.'' Cambridge University 
Press, 2019.
    \2\ Hultman, Lisa, Jacob Kathman, and Megan Shannon. ``United 
Nations Peacekeeping and Civilian Protection in Civil War.'' American 
Journal of Political Science 57(4). 8 May 2013. pp. 875-91.
    \3\ ``UN Peacekeeping Cost Estimate for Hypothetical U.S. Operation 
Exceeds Actual Costs for Comparable UN Operation.'' Government 
Accountability Office GAO-18-243. February 2018.
    \4\ Lee and Sullivan. ``People's Republic of the United Nations: 
China's Emerging Revisionism in International Organizations.'' Center 
for a New American Security. May 2019.
    \5\ Piccone, Ted. ``China's Long Game at the United Nations.'' The 
Brookings Institution. September 2018. p. 4.
    \6\ Lynch and Cramer. ``Senior Officials Concede Loss of U.S. Clout 
as Trump Prepares for U.N. Summit.'' Foreign Policy, 5 September 2019.
    \7\ Cheney, Clayton. ``China's Digital Silk Road: Strategic 
Technological Competition and Exporting Political Illiberalism.'' 
Council on Foreign Relations. 26 September 2019.
    \8\ Foxman and Lasensky. ``A Righteous U.N. Secretary-General.'' 
Wall Street Journal, June 27, 2018.

    Senator Young. Thank you, Mr. Yeo, for your instructive 
testimony.
    Finally, we are joined by Ms. Amy K. Lehr. Ms. Lehr serves 
as the Director of the Human Rights Initiative at the Center 
for Strategic and International Studies. Ms. Lehr, please 
proceed.

    STATEMENT OF AMY K. LEHR, DIRECTOR OF THE HUMAN RIGHTS 
  INITIATIVE, CENTER FOR STRATEGIC AND INTERNATIONAL STUDIES, 
                         WASHINGTON, DC

    Ms. Lehr. Chairman Young, Ranking Member Merkley, thank you 
so much for holding a hearing on this important topic and for 
offering me an opportunity to speak today.
    Today, I will talk about how perceived U.S. disengagement 
at the U.N. at a moment of shifting geopolitics is severely 
damaging to U.S. influence and to human rights. I will also 
offer some recommendations on how to reassert leadership. This 
is really the moment we need to up our game, not be stepping 
back.
    When the administration pulled out of the U.N.Human Rights 
Council and the U.S. was left without an Ambassador to the U.N. 
for 9 months, that led to a perception that this was a lack of 
confidence and interest in the U.N. system. So it had a 
signaling effect.
    This was a mistake. The U.N. is not perfect, but it is 
still a really important forum for advancing democracy, human 
rights, and good governance.
    And the problem is that U.S. disengagement could not be 
more poorly timed. As others have discussed today, it has 
created a vacuum that other governments are using to advance 
their own interests that are very much counter to human rights 
and to long-term U.S. values. Faltering U.S. leadership has 
coincided particularly with the rise in Chinese engagement, 
which has shifted in its form in recent years, and that 
engagement is long-term, strategic, and aimed at really 
altering the rules of global governance.
    I am focusing on China due to this increasing leadership in 
the U.N., but obviously it is not the only government seeking 
to undermine human rights and other core values there.
    So I am going to overly simplify this, but China is 
advancing several key goals at the U.N. regarding human rights. 
So first, it is seeking to avoid scrutiny of its own abuses by 
changing the rules of the game. And second, it is seeking to 
weaken human rights and global governance by advancing new 
ideologies at the U.N.
    So what does this look like in practice? I will just give a 
few very quick examples.
    So U.N. human rights bodies are struggling to engage in any 
kind of oversight over what is happening in Xinjiang in terms 
of abuses against Muslim minorities there. Moreover, 22 
countries drafted a letter that they submitted to the President 
of the Human Rights Council expressing concern about the human 
rights situation in Xinjiang. I was told that was given to the 
president of the council instead of read on the floor because 
no one country was willing to take on that role of really 
angering China. And in an unprecedented move, China convinced 
37 countries to write a rebuttal--this is not normal--praising 
China's treatment of its Muslim minorities. European 
governments I have spoken with have expressed the urgent need 
for the U.S. to reengage in the Human Rights Council so this 
does not ever happen again.
    I do want to acknowledge that the U.S. is providing 
leadership on human rights in other fora within the U.N.
    The U.N. has long provided for civil society organizations 
to have official consultative status at the U.N., with the idea 
that this enhances transparency and support for democracy and 
democratic values. Unfortunately, Chinese diplomats at the U.N. 
have intimidated NGOs and journalists on U.N. grounds and 
sought to have them banned. In fact, they tried to have Tibetan 
and Uighur organizations stripped of their accreditation.
    I have described some actions by China to avoid criticism 
at the U.N., but the U.S. really needs to be focused on the 
long game. So that is playing out across the multiple U.N. 
agencies and not just ones that have ``human rights'' in their 
titles. This occurs, for example, through the insertion of 
Chinese ideology into U.N. documents and through senior-level 
appointments, as has been discussed today.
    For example, a recent and successful China-sponsored 
resolution in the Human Rights Council called for ``mutually 
beneficial cooperation'' in human rights. This is a euphemism 
for state-requested capacity building to be the main means to 
promote human rights at the U.N. The concept also supports the 
principle of complete non-interference and would help China and 
other abusive states reject U.N. oversight over human rights, 
like in Xinjiang, Tibet, Hong Kong, et cetera. The approach is 
getting the support of other autocratic states, and of course, 
China is increasingly making economic threats against other 
actors so they can benefit from their votes.
    Other U.N. bodies also matter for human rights. And the ITU 
has been discussed here today, but I think technology and 
technology governance will have enormous implications for human 
rights. So staying engaged on these standard-setting bodies 
will be incredibly important, including from a human rights 
perspective.
    I do want to talk about a number of steps the U.S. could 
take to ensure that the U.N. remains a forum supportive of 
human rights and democratic governance.
    So, one, it is my view, based on the data, that the U.S. 
should rejoin the Human Rights Council. The data shows that 
when the U.S. was part of it, the body's membership included 
fewer of the worst human rights abusers, the number of 
resolutions targeting Israel dropped significantly, and the 
Human Rights Council passed more resolutions enabling oversight 
for abuses in places such as Syria. And many I have spoken to 
ascribe these positive developments to U.S. diplomacy and 
leadership in that body. Our large mission just has the ability 
to do the legwork to get votes on crucial issues that others 
cannot do.
    The U.S. also needs a whole-of-U.N. strategy. The U.S. 
should really signal that the U.N. matters. The strategy should 
be principles-based focused on strengthening support for human 
rights, democratic norms, and rule of law across the U.N. The 
strategy should not be framed in terms of competition with 
particular countries. That will not get the support of the 
allies we need. We have to do it in coordination with 
likeminded countries. We are not going to be able to do this 
alone and succeed.
    Congress should maintain or increase funding for U.N. 
agencies, and the administration should not try to cut it.
    And last, the U.S. needs to lead by example. Every country 
in the world can improve its human rights practices. We need to 
engage with U.N. special rapporteurs that are exercising their 
oversight functions. Otherwise we make it really easy for other 
countries to thwart oversight and then cite the U.S. to justify 
what they are doing.
    Thank you so much, and I look forward to your questions.
    [The prepared statement of Ms. Lehr follows:]

                   Prepared Statement of Amy K. Lehr

    Chairman Young, Ranking Member Merkley, and distinguished Members 
of the Subcommittee, thank you for holding a hearing on this important 
topic and offering me an opportunity to speak.
    I am the Director of the Human Rights Initiative at CSIS and 
previously worked for the U.N. Special Representative on Business and 
Human Rights.
    Today, I will address how U.S. disengagement at the U.N. at a 
moment of shifting geopolitics is severely damaging to U.S. influence 
and to human rights. I will also offer recommendations on how to 
reassert leadership.
    The administration signaled its lack of confidence and interest in 
the U.N. system. It pulled out of the U.N. Human Rights Council 
(``HRC'') and the U.S. was left without an Ambassador to the U.N. for 9 
months. This was a mistake. The U.N. system is not perfect, but is 
still an important forum for advancing democracy, human rights, and 
good governance around the world.
    U.S. disengagement could not be more poorly timed. It has created a 
vacuum that pernicious actors are using to advance agendas that are 
counter to human rights and thus counter to the long-term interests of 
the U.S. and its allies. Faltering U.S. leadership has coincided with a 
rise in Chinese engagement, which is long-term, strategic, and aimed at 
altering the rules of global governance. In principle, having more 
countries engaged at the U.N. is positive, but it is problematic when 
they seek to undermine human rights and civil society there. I'll focus 
on China due to its increasing leadership in the U.N. system, although 
it is not the only government seeking to undermine human rights and 
other core values.
    China is advancing several goals at the U.N.\1\ First, it seeks to 
avoid scrutiny of its own abuses. Second, it seeks to weaken human 
rights and global governance by advancing new ideologies at the U.N.
    How does this play out in practice?
    U.N. human rights bodies have struggled to engage in any oversight 
over the situation in Xinjiang, despite the abuses against Muslim 
minorities there. Moreover, 22 countries drafted a letter that they 
submitted to the president of the HRC expressing concern about the 
human rights situation in Xinjiang. In an unprecedented move, China 
convinced 37 countries to write a rebuttal, praising its treatment of 
its Muslim minorities. European governments involved in the situation 
have expressed the urgent need for the U.S. to re-engage so this does 
not happen again.
    The U.N. has long provided for civil society organizations to have 
official consultative status at the U.N., with the idea that this 
enhances transparency and is consistent with democratic norms. Chinese 
diplomats at the U.N. have intimidated NGOs and journalists on U.N. 
grounds and sought to have them banned. They have tried to have Tibetan 
and Uighur organizations stripped of their accreditation.\2\
    I've described actions by China to avoid criticism at the U.N. But 
the U.S. needs to be focused on the long game, which is playing out 
across multiple U.N. agencies. This occurs through the insertion of 
Chinese ideology into U.N. documents and through senior-level 
appointments.
    For example, a recent, successful China-sponsored resolution in the 
HRC called for ``mutually beneficial cooperation'' in human rights--a 
euphemism for state-requested capacity building to be the main means to 
promote human rights at the U.N.\3\ It supports the principle of non-
interference and would help China and other abusive states reject U.N. 
oversight over human rights. China could then escape U.N. scrutiny for 
Xinjiang, Tibet, and Hong Kong. This approach easily gains the support 
of other autocratic states, and China increasingly makes economic 
threats against other, more democratic nations so that it benefits from 
their votes.
    Other U.N. bodies also matter for human rights. There is a risk, 
for example, that the International Telecommunication Union (``ITU'') 
will increasingly insert itself into internet governance, especially 
with the advent of 5G. The ITU is led by a Chinese national, and there 
are concerns that if the ITU increasingly intrudes into technology 
governance, this will advance a less free and open internet and 
society.
    The U.S. can take a number of steps to ensure that the U.N. remains 
a forum supportive of human rights and democratic governance.

    -- It should rejoin the HRC. When the U.S. was part of the HRC, the 
body's membership included fewer of the worst human rights abusers, the 
number of resolutions targeting Israel dropped significantly, and the 
HRC passed more resolutions enabling oversight for abuses in places 
such as Syria.\4\ Many ascribe these positive developments to U.S. 
diplomacy, including our large mission that can do the leg work to 
garner needed votes on particular resolutions. It is clearly better for 
the U.S. to be in than out.

    -- The U.S. needs a ``whole of U.N.'' strategy. It should signal 
that the U.N. does matter as an institution that sets global norms and 
rules. The strategy should focus on strengthening support for human 
rights, democratic norms, and rule of law through the U.N.'s many 
bodies, and deploy our talented diplomats accordingly. We should do 
this in close coordination with like-minded countries. We cannot go it 
alone and succeed.

    -- Congress should maintain or increase funding for U.N. agencies, 
and the administration should cease trying to cut it.

    -- Last, the U.S. needs to lead by example. Every country in the 
world can improve its human rights practices. We must engage with U.N. 
Special Rapporteurs that are exercising their oversight functions, or 
we make it very easy for other countries to thwart oversight and then 
cite the U.S. to justify their actions.

    Thank you, and I look forward to your questions.

----------------
Notes

    \1\ For an excellent discussion of these issues, see China's Long 
Game on Human Rights at The United Nations, Ted Piccone, September 
2018.
    \2\ China's Long Game on Human Rights at The United Nations, Ted 
Piccone, September 2018.
    \3\ Is China Winning its fight against rights at the U.N.?, Sophie 
Richardson, The Hill, December 2018.
    \4\ Game Changer: the U.S. at the U.N. Human Rights Council, The 
Jacob Blaustein Institute for the Advancement of Human Rights, May 
2017.

    Senator Young. Thank you, Ms. Lehr.
    Mr. Merkley.
    Senator Merkley. Thank you very much, all of you, for your 
testimony.
    Mr. Yeo, so the U.S. thought 25 percent was a reasonable 
number to contribute, one-quarter of the total costs, and the 
arrears you spoke of were because the U.N. continues to assess 
the U.S. almost 28 percent. I believe that is the main driver 
of those arrears. 25 percent I think to anyone back home in 
Oregon sounds like, oh, we are contributing a quarter. Is that 
not a fair amount?
    Mr. Yeo. Sounds reasonable to me except that the U.S. voted 
in December to support an assessment rate for the U.S. of 27.8 
percent. So these rates are negotiated every 3 years. We had an 
opportunity in December of last year to reduce the U.S. rate. 
And so Nikki Haley was engaged in active negotiations, and they 
got the rate down from roughly 28.2 to 27.8. But we negotiated 
this rate. We also have the opportunity to veto any 
peacekeeping mission that we view is too expensive or too 
costly. And so when we vote for these missions--and we just 
voted for the mission in Central African Republic last week. So 
we vote for these missions. We agreed to this assessment rate, 
and so it seems to me that under those circumstances----
    Senator Merkley. Thank you. That is a very interesting 
piece of information because I am surprised to hear that, that 
we voted for those rates since we have had a longstanding cap 
at 25 percent.
    I think the United States feels--but I will ask you--that 
often these peacekeeping missions do a pretty effective job in 
very difficult places in the world. Is that a fair way to put 
it?
    Mr. Yeo. Absolutely. They are operating in countries in 
which the U.S. and our European allies in general do not wish 
to operate. So in the case of Central African Republic, the 
mission there has played a vital role in ensuring the 
prevention of a genocide between various religious and ethnic 
groups. And as we approach elections in Central African 
Republic next year, they would not happen without U.N. 
peacekeepers, as well as sort of negotiations that occur to 
bring all the relevant parties together. So this is just a 
specific case where U.N. peacekeepers are advancing our 
interests.
    Senator Merkley. Do you think we are going to see a lot 
more challenges as a result of climate chaos and the impact on 
basic agriculture in the world? For example, in Syria, extended 
drought resulted in people moving to the cities because they 
were starving. That created conflict, and it was kind of the 
roots of the Syrian war. I was just down in the Northern 
Triangle where extended drought has driven people out of 
peasant villages. They go to the cities where there is 
extraordinarily gang-style extortion, and they flee north.
    Are we going to see a lot more conflict driven by 
fundamental challenges for food in the world?
    Mr. Yeo. Absolutely. We are already seeing it. I mentioned 
I was in Mali, and a lot of the conflict in northern Mali but 
also in Central African Republic is due to changed migration 
patterns and changed herding practices as a result of climate 
change. So absolutely there is a relationship between what is 
happening in terms of conflict between villagers that used to 
get along, groups that used to get along, but no longer do 
because of tighter resources caused by climate change.
    Senator Merkley. Are we still in Cyprus?
    Mr. Yeo. Yes. We have a very small mission in Cyprus. And 
ultimately the resolution of the mission in Cyprus is dependent 
upon some sort of broader political settlement. It is not a 
costly mission. As we think about the drivers and----
    Senator Merkley. I was going to say it seems like that is 
not exactly one of the trouble spots in the world right now. It 
has been pretty stable for a while.
    Mr. Yeo. Indeed.
    Senator Merkley. So, Amy, I want to turn to you. I have 
heard that China has proceeded to try to block certain 
activists from gaining access to the U.N. premises. Has that 
happened?
    Ms. Lehr. Yes. So there is one particular instance that has 
gotten news time recently. There is a Uighur organization 
called the World Uighur Congress, and the head of it was not 
allowed to join the--there is a permanent forum for indigenous 
peoples every year, which if you are an indigenous people, this 
is a very important forum, and it is a very broad group. And 
the head of DESA allegedly blocked him from participating, 
although later, my understanding is, the U.S. and Germany 
intervened and he was able to attend after all. The head of 
DESA, whether or not this is relevant, happens to be Chinese.
    Senator Merkley. I hope we are going to make absolutely 
sure that China cannot play that role.
    I had also heard they had tried to block U.N. accreditation 
for certain activist groups. Is that true as well?
    Ms. Lehr. That is my understanding as well.
    Senator Merkley. Why the hell would be that be possible? 
Why would one nation be able to block various groups from 
getting accreditation be part of the conversation?
    Ms. Lehr. So I have actually been looking into that. I 
believe--I can follow up and confirm this--that--so again, I 
believe accreditation happens through DESA.
    Senator Merkley. Okay. Well, I would sure like to see us 
pay a lot of attention to that because it is another example of 
China's growing role. But the idea that on U.S. territory in 
New York, the Chinese are controlling who gains access to the 
premises seems just beyond wrong.
    I did want to mention that the strategies that have been 
revealed that China is using against the Uighurs--is it fair 
for me to say it is almost like slavery, massive monitoring, 
facial recognition, close control of communications, directed 
labor, a really horrific situation if you say here is freedom 
up here and here is what is going on with the Uighurs and 
China's treatment of the Uighurs?
    Ms. Lehr. Well, it is actually like slavery in the sense 
that there is a significant problem with forced labor, and my 
initiative just put out a report on that. So in addition to 
widespread surveillance and social control, there are people 
actually being forced to work in significant numbers.
    Senator Merkley. And significant. Give me a number on that. 
We are talking a lot of people.
    Ms. Lehr. I mean, we are talking--it is hard to get exact 
numbers there. In the area of Kashgar, which is a Uighur 
dominated area, an official said the numbers that they said 
they wanted to put to work of these detainees would be like--I 
believe it was 20 percent of the Uighur population there. I 
mean, that would be over 100,000 people. And if you look at the 
whole area, this is hundreds of thousands of people.
    Senator Merkley. There are sci-fi movies about 
extraordinary government control of people that are less scary 
than what China is doing there. So I hope we will continue to 
highlight that.
    I am concerned that the conversation about trade with China 
and the interests, the economic conversation, has reduced our 
attention and amplification of this horrific situation. And I 
will just invite any of you to speak to that who would like to.
    Ms. Lehr. I would just say generally there is more we can 
do and should be doing and that we really need to be engaging 
with Europe and other allies on this. It is not a problem we 
are going to solve on our own. It is a problem that I think 
does concern everyone. One thing I have heard repeatedly, going 
back to this topic of the U.N., is from Europeans that they are 
also concerned. They really feel like if the U.S. is there 
pushing at the table, including in the Human Rights Council, 
they are going to be able to do more to push. Like, China is 
manipulating the Human Rights Council and mechanisms to 
whitewash its record on Xinjiang. And so that would be, again, 
talking about why does it matter the U.S. is not present there. 
This is one of those reasons why having a lack of U.S. 
leadership there actually matters.
    Now, I want to recognize the State Department has pulled 
together side events on Xinjiang around the General Assembly 
and has made efforts. So I do not want to discount those.
    Senator Merkley. Thank you.
    Senator Young. Mr. Schaefer, did you have something you 
wanted to add to the topic?
    Mr. Schaefer. Senator Merkley, I can actually give you some 
clarification on the NGO issue, if you would like.
    Senator Merkley. Go ahead.
    Mr. Schaefer. The Heritage Foundation is an accredited NGO 
at the United Nations. The process for accreditation goes 
through an NGO committee comprised of member states. That 
committee operates by consensus. China is usually a member of 
that committee. In that position, they frequently will 
challenge applications for NGOs to be accredited by the 
organization, questioning them, asking further clarification, 
delaying the process indefinitely. A lot of organizations give 
up at that point. That is one mechanism through which they 
block organizations from being accredited at the U.N.
    Also, there is a quadrennial review of organizations. China 
and other countries will ask questions that delay the approval 
of that quadrennial report. It is every 4 years. Sometimes that 
final approval can be delayed all 4 years and then begin again 
with the next report. I speak from experience.
    Senator Merkley. So, Mr. Schaefer, thank you for clarifying 
that. What can we do?
    Mr. Schaefer. Very little. The organization defines its own 
rules. A change in the rules will require the member states to 
adopt those changes. The United States alone cannot force it. 
As with many different issues at the U.N., the member states 
are not friendly to NGOs. They are not friendly to 
transparency, and they are not interested in accountability or 
being challenged. They use their position as member states to 
block those organizations that they think might put them in 
awkward positions. You talk about China being influential. Part 
of China's influence is that a lot of member states share their 
perspective on these issues, and that is the key part of the 
problem.
    Ms. Lehr mentioned that without the United States in 
Geneva, that the member states were unwilling to put a question 
directly or an application directly to the President of the 
Human Rights Council.
    Ms. Lehr. It was a statement on the floor where someone 
would have had to read the statement.
    Mr. Schaefer. And that is really the problem, is it not? 
Why will a single member state not step forward to assume that 
responsibility? Must the United States be the only country to 
do that? Is the United States the only country capable of doing 
that? No, absolutely not.
    Senator Merkley. Thank you.
    Senator Young. I think we may have stumbled upon an answer 
actually. And perhaps Ms. Lehr gave us a window into it. I 
thought your recommendations were thoughtful, Ms. Lehr. But the 
one you most recently listed just moments ago was deeper 
engagement with Europe. I would expand that to include our G7 
trading partners and allies. Maybe we go to the G20 if we want 
to include a more diverse array of countries and take a 
multilateral economic approach to apply pressure to the Chinese 
and actually develop a teased-out--what the ranking member and 
I have branded as a global economic security strategy so that 
we can bring China through the only thing they seem to 
understand, which is growing their economy or not growing their 
economy--bringing them into a position of better behavior. And 
through that mechanism, I think we could apply pressure. It 
would be outside of the U.N. construct, but I bet their conduct 
within the U.N. would improve.
    I would welcome the thoughts of any of the witnesses about 
that idea. Senator Merkley and I collaborated on that 
legislation. We have been joined by Senators Coons and Rubio.
    Mr. Yeo. I think that to the extent that the U.S. makes an 
effort to have systematic high-level dialogue with our key 
allies on human rights issues and understand how we are going 
to collectively respond to the human rights challenges posed by 
countries such as China, the U.N. is just one mechanism that we 
can work collectively on this.
    I think the other suggestion I would make is we need to 
send our best diplomats to work in the multilateral context, 
and they need to be trained in multilateral diplomacy. And 
multilateral diplomacy is a unique bird in terms of 
understanding how you assemble coalitions behind the scenes to 
tackle important issues like human rights. So to the extent 
that we can actually incentivize the State Department to send 
our best diplomats to work in these settings and then train 
them well, it can have better outcomes on human rights issues.
    Senator Young. Thank you.
    Ms. Lehr, do we have the economic clout and the convening 
power to improve China's behavior not just in the U.N. but more 
generally?
    Ms. Lehr. Sir, first, I completely agree that the U.N. is 
not the only body that we would want to engage with to improve 
China's track record.
    I do think the economic piece of it is important. It is a 
piece of the puzzle. And to your point, yes, we need to work 
with more than just Europe. We have other likeminded around the 
world, and we should be engaging with them consistently with a 
strategy.
    Just one other piece I would add to that is that the letter 
I mentioned that was signed by so many countries saying how 
wonderful China's treatment of its Muslim minorities was signed 
by a lot of Muslim countries. And I believe we do not have an 
envoy right now to OIC, and that seems like a lost opportunity 
to at least try to not have that kind of positive language 
coming out of countries that you would think would be quite 
upset about what is going on.
    I think the economic leverage--I mean, if we do not have it 
working with our allies, I do not know who does. So you got to 
start somewhere.
    Senator Young. Thank you.
    Mr. Schaefer.
    Mr. Schaefer. Thank you, Senator.
    There are several different issues that you have raised 
here. One is raising the issue of multilateral negotiations to 
prominence within the State Department. In some of my papers, I 
actually suggested creating an under secretary for multilateral 
affairs to prominently position these issues. Currently the 
responsibility for international organizations and U.S. policy 
toward international organizations is spread throughout the 
U.S. Government over at the Health and Human Services 
Department, over at the Department of Commerce, over at the 
Labor Department, in addition to the State Department. 
Different parts of the government have a piece of this puzzle. 
Sometimes in the interagency process an assistant secretary 
does not have the clout necessary to carry the day, and some of 
their negotiating partners are going to be at a higher level 
than they are. The unfortunate reality is that the 
international organizations bureau inside the State Department 
is somewhat of a redheaded stepchild. I think that elevating 
that bureau would elevate the prominence and the cohesion of 
U.S. policy formulation on international organizations across 
the U.S. Government. I think that is important because whether 
we like it or not, increasingly issues of importance to the 
United States are being addressed multilaterally rather than 
bilaterally. So that is one issue.
    Second, yes, the economic engagement with China is a 
critical piece to this puzzle. China does not respond easily to 
moral suasion. I think that you need to be a little bit more 
direct in your confrontation with China to get it to change its 
behavior. It is unfortunate that many countries that the United 
States agrees with off the record, whether they are in Europe 
or Latin America or Africa or in Asia, are reluctant to speak 
publicly or take stances firmly inside the international 
organizations on the record. That is something that needs to be 
fixed.
    And even though my fellow panelists may disagree with me, I 
think the U.S. withdrawal from the Human Rights Council has 
forced some of those countries to take stronger stands. For the 
first time European countries voted against agenda item 7 in 
the Human Rights Council, which is the anti-Israel agenda item 
in the Human Rights Council, instead of just abstaining on 
those resolutions. That is something they had not done before, 
and it is something that is a marked change in behavior from 
their past practice.
    Thank you.
    Senator Young. Colleagues, fellow witnesses, feel free to 
disagree about the Human Rights Council. We have not had enough 
disagreement this go-around.
    [Laughter.]
    Senator Young. Stir the pot a little bit.
    Mr. Yeo. I would just say that the work of the Human Rights 
Council has continued. And what has happened is you have seen 
important measures related to Yemen and North Korea and Syria 
being adopted in the Human Rights Council even though the U.S. 
is not a member of it.
    The challenge is the U.N. Human Rights Council remains the 
preeminent global body in which not only countries in Europe 
but around the world look towards for standard-setting and 
statements related to human rights. And we are not 
participating.
    Senator Young. Cuba, China, Venezuela, they all had seats 
on the council. Venezuela was a member in 2015, and the council 
invited Maduro to speak at a special assembly and he got a 
standing ``O.''
    Mr. Yeo. There is absolutely no doubt about it that these 
membership rules for the U.N. Human Rights Council create a 
situation where there are countries on there that do not share 
our values. That said, all this important work is still 
happening. We should be participating in this work in the Human 
Rights Council, advancing our interests as it relates to 
Venezuela and to Syria and to North Korea, as opposed to taking 
a walk and saying, well, we did not get everything we wanted, 
we are out. I think we need to stay engaged, try to get what we 
want, continue to push for reform because you are right. It 
does not make sense that human rights abusers are a member of 
the Human Rights Council. Let us fix it.
    Senator Young. Ms. Lehr, I will ask you quite provocatively 
before I allow Mr. Schaefer an opportunity to respond. Do we 
really want to reenter the Human Rights Council? 62 percent of 
the Human Rights Council members were not democracies, 
according to my most recent reading. Do we want to be part of 
that club?
    Ms. Lehr. So I actually looked at the data because I do 
think it is obviously an imperfect body, and I think the U.S. 
has legitimate concerns about standing agenda items on Israel, 
the membership, et cetera.
    So there is an organization called the Jacob Blaustein 
Institute that has actually sort of run the numbers on what 
happens with the U.S. is out of the council and when we are in. 
It is an organization founded by the American Jewish Committee.
    And what they found was, for example, that country-specific 
resolutions that targeted Israel dropped from 50 percent of the 
resolutions to 20 percent when the U.S. was in. So there was a 
significant reduction. Our membership appears to have at least 
made things meaningfully better. The quality of the countries 
that we are able to get into the council was better--not good, 
but better.
    I think the other piece is again just looking--so their 
research focuses in our prior concerns about the council. I 
think if you look at also the research being done on what is 
China doing in this council--and so these are new concerns. And 
what they are trying to do is change the nature of the human 
rights machinery at the U.N. Right now it is based on this idea 
that you do not get to just tell the U.N., if you are China, 
Saudi Arabia, Iran, we do not want you to talk about us. You 
cannot have any access. There is this idea of oversight by 
other member states, this collective oversight around human 
rights, especially around gross abuses.
    China is trying to change that paradigm. They just started 
submitting resolutions in the Human Rights Council in 2017. 
This is new. And they are submitting multiple resolutions and 
amendments that, first of all, use terminology taken directly 
from Xi Jinping speeches like ``win-win cooperation'' and 
``mutual respect.'' It is a problem.
    Senator Young. All right, Ms. Lehr. So not a bad answer. 
But we can give Mr. Schaefer plenty of time for a wind-up and a 
response.
    [Laughter.]
    Senator Young. So, look, Mr. Schaefer, you heard the 
counter-arguments. I mean, is there really a viable alternative 
to the Human Rights Council? Is there any other multilateral 
fora that we could join to address these sorts of human rights 
issues?
    Mr. Schaefer. There are some regional ones, as mentioned by 
the earlier panel, OAS. There is also the OSCE--I am sorry--the 
Organization for American States and the Organization for 
Security and Co-operation and in Europe.
    But there is one other one. It is called the Third 
Committee of the U.N. General Assembly. It has membership of 
all U.N. member states. They pass resolutions condemning 
countries every single fall. There is no reason why that body 
could not convene every few months, in the spring, in the 
summer, and the other times--or operate continuously to discuss 
human rights problems.
    Senator Young. I wonder why that has not happened. 
Ambassador Haley went to great efforts to try and reform the 
Human Rights Council before we left, and that met with no 
success, which would seem to run against the grain of what the 
other witnesses----
    Mr. Schaefer. Not to disparage our fine friend in Central 
Europe, but having it be in the Third Committee would result in 
eliminating the Human Rights Council and moving those resources 
out of Geneva. That is obviously of concern to Switzerland.
    Senator Young. Yes.
    Mr. Schaefer. They want to maintain as many U.N. 
organizations there as they possibly can.
    But the advantage of having it in the Third Committee is 
that every member state is present. Not every member state is 
present in Geneva.
    Every fall, the Third Committee of the General Assembly 
receives a report from the Human Rights Council and approves 
it. It reviews it and approves it. So it is already engaged in 
these discussions and a lot of these issues before the Human 
Rights Council. There is no reason why that body could not 
assume the same responsibilities, hear the reports and hear the 
testimonies of the human rights experts, have the High 
Commissioner for Human Rights attend its sessions and provide 
information for that office as well. There is no reason why the 
Third Committee could not fulfill these responsibilities.
    But I wanted to talk a little bit about the Human Rights 
Council. Ms. Lehr mentioned that the percentage of resolutions 
on Israel, condemnatory resolutions on Israel, went down as a 
percentage. I want to just say that the number of them has not 
declined. What has happened is that the U.N. Human Rights 
Council has passed more resolutions on other countries. Every 
year they pass the same number of resolutions on Israel over 
and over and over again. It is good that more countries with 
human rights problems are having Human Rights Council 
resolutions passed addressing their situations. But it is worth 
noting that there are a number of countries that are 
deliberately ignored: China, Cuba, Russia, Saudi Arabia, and 
other countries never have had a Human Rights Council 
resolution passed condemning their human rights practices 
despite ample evidence of them.
    Senator Young. Well, thank you, Mr. Schaefer. I know we 
could continue with this for a long period of time. I welcome 
continued dialogue with our offices on this really important 
matter.
    I am going to turn it over to Mr. Merkley to ask a final 
pointed question on an issue that was brought up, and then we 
will stay on schedule and wrap up. Mr. Merkley?
    Senator Merkley. So a few days ago, the New York Times 
published an article derived from 403 pages of internal 
documents from the Chinese Communist Party about how they treat 
the Uighurs and Kazakhs. And they noted that based on that, in 
the Xinjiang area, a million ethnic Uighurs, Kazakhs, and 
others have been herded into interment camps. And they go on to 
note the absolute ruthlessness of this. And of course, a lot of 
this is directed to groups that are Muslims in China and are 
seen to the rest of China, the Chinese Government as a threat.
    So I am still kind of wrestling with what I heard about the 
Organization for Islamic Cooperation. It has 57 members. 47 
members are Muslim majority. And how is it that these Muslim 
majority countries are saying that China has an exemplary human 
rights record? I do not get that.
    And you mentioned, Ms. Lehr, that we do not have an envoy. 
Is that because one has not been nominated or we have not 
confirmed the envoy?
    I will just mention both those things because maybe that is 
something we can follow up on.
    Ms. Lehr. So I will be honest and say I am not sure which 
reason it is. I just know that we do not have one, and I am 
happy to look into that and follow up with you.
    But, yes, I am also concerned about how a number of Muslim 
countries could come out with a statement like that. And 
clearly there is an opportunity for us to try to shift that 
conversation.

     Response Received From Amy K. Lehr to the Take-Back Question 
                   Submitted by Senator Jeff Merkley

    Question. Why there is no special envoy to the Organization of 
Islamic Cooperation (OIC)?

    Answer. Secretary Tillerson thought that it would be more efficient 
to consolidate the position into the role of the Ambassador-at-Large 
for International Religious Freedom. He eliminated a number of special 
envoy positions. Notably, some were not eliminated because Congress had 
mandated their existence.


    Senator Merkley. I think it shows--I have to wrap up 
because I am on the clock, and I am getting kicked under the 
desk here.
    I think it suggests a massive growing influence of China in 
the world and why it is good we held this hearing. And thank 
you, Mr. Chairman, for doing so. I think we have to keep 
pondering the dynamics in this world in which I see a Chinese 
kind of ruthless strategy gaining ground, and we have a lot of 
work to do. Thank you.
    Senator Young. Well, thank you, Mr. Merkley, for your 
friendship, your comity, and your brevity.
    And thank you to all of our witnesses today for their 
statements and for their willingness to engage in what has been 
I believe a constructive dialogue.
    I will again call members' attention to the fact that the 
record will remain open until the close of business on Friday, 
including for members to submit questions for the record.
    Thank you to the members of the subcommittee, especially to 
the ranking member once again, and thank you all to our 
witnesses.
    So this hearing is now adjourned.
    [Whereupon, at 4:33 p.m., the hearing was adjourned.]
                              ----------                              


              Additional Material Submitted for the Record


                Response of Jonathan Moore to Question 
                    Submitted by Senator Todd Young

    Question.One way for the United States to ensure its priorities and 
values are reflected internationally is to place American citizens in 
high-level positions within the United Nations system:

    What is the International Organizations Bureau doing to place 
Americans in senior positions? What policies or practices are 
preventing the placement of more American citizens within the U.N.?

    Answer. The United States is dedicated to ensuring our values and 
interests are represented throughout the United Nations system, and to 
supporting reform efforts that improve transparency, efficiency and 
accountability.
    The Bureau of International Organization Affairs maintains an 
American Citizens unit which actively encourages qualified Americans to 
apply for relevant positions and advocates for the employment of 
Americans in international organizations. That unit has created a 
public website (iocareers.state.gov) to make the process of seeking and 
applying for U.N. jobs more transparent to American citizens. We have 
scored a number of recent successes, including securing senior 
positions for distinguished Americans at the Pan American Health 
Organization, the United Nations Office of Counter-Terrorism, and the 
Food and Agriculture Organization of the United Nations.

                                  [all]
</pre></body></html>
